Department of Homeland Security
   Ofﬁce of Inspector General

             Information Technology Management 
 

               Letter for the Federal Emergency 
 

            Management Agency Component of the 
 

            FY2010 DHS Financial Statement Audit 
 





OIG-11-79                                              May 2011
                                                                                Office ofInspector General

                                                                     U.S. Department ofHomeland Security
                                                                                   Washington, DC 25028




                                                            Homeland
                                                            Security
                                       MAY 061011
                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

This report presents the information technology (IT) management letter for the Federal
Emergency Management Agency (FEMA) component ofthe DRS financial statement audit as of
September 30,2010. It contains observations and recommendations related to IT internal control
that were summarized in the Independent Auditor's Report dated November 12,2010 and
presents the separate restricted distribution report mentioned in that report. The independent
accounting firm KPMG LLP (KPMG) performed the audit procedures at the FEMA component
in support ofthe DRS FY 2010 financial statements and prepared this IT management letter.
KPMG is responsible for the attached IT management letter dated March 22,2011, and the
conclusions expressed in it. We do not express opinions on DRS' financial statements or
internal control or conclusion on compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                     Assistant Inspector General
                                     Information Technology Audits
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




March 22, 2011

Inspector General
U.S. Department of Homeland Security

Chief Information Officer and
Chief Financial Officer
Federal Emergency Management Agency

Ladies and Gentlemen:
We were engaged to audit the balance sheet of the U.S. Department of Homeland Security (DHS or
Department), as of September 30,2010 and the related statement of custodial activity for the year
then ended (herein after referred to as "financial statements"). We were also engaged to examine
the Department's internal control over financial reporting of the balance sheet as of September 30,
2010 and the statement of custodial activity for the year then ended. We were not engaged to audit
the statements of net cost, changes in net position, and budgetary resources as of September 30,
2010 (hereinafter referred to as "other fiscal year (FY) 2010 financial statements"), or to examine
internal control over financial reporting over the other FY 2010 financial statements.
Because of matters discussed in our Independent Auditors' Report, dated November 12, 2010, the
scope of our work was not sufficient to enable us to express, and we did not express, an opinion on
the financial statements or on the effectiveness ofDHS' internal control over financial reporting of
the balance sheet as of September 30,2010, and the related statement of custodial activity for the
year then ended. Additional deficiencies in internal control over financial reporting, potentially
including additional material weaknesses and significant deficiencies, may have been identified and
reported had we been able to perform all procedures necessary to express an opimon on the
financial statements or on the effectiveness ofDHS' internal control over financial reporting of the
balance sheet as of September 30, 2010, and the related statement of custodial activity for the year
                                                                                   °
then ended; and had we been engaged to audit the other FY 20 I financial statements, and to
examine internal control over financial reporting over the other FY 2010 financial statements.
A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and
correct misstatements on a timely basis; A significant deficiency is a deficiency, or a combination
of deficiencies, in internal control that is less severe than a material weakness, yet important enough
to merit attention by those charged with governance. A material weakness is a deficiency, or a
combination of deficiencies, in internal control, such that there is a reasonable possibility that a
matenal misstatement of the entity's financial statements will not be prevented, or detected and
corrected on a timely basis.
The Federal Emergency Management Agency (FEMA) is a component ofDHS. During our audit
engagement, we noted certain matters in the areas of information technology (IT) configuration
management, security management, access controls, segregation of duties, and contingency
planning with respect to FEMA's financial systems IT general controls, which we believe
collectively contribute to an IT material weakness at the DHS level. These matters are described in
the IT General Control Findings and Recommendations section of this letter.

Information Technology Management Letter for the FEMA Component of the FY 2010 DHS
                             Financial Statement Audit
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                ("KPMG International"), a Swiss entity.
The material weakness described above is presented in our Independent Auditors' Report, dated
November 12, 2010. This letter represents the separate limited distribution letter mentioned in that
report.
The control deficiencies described herein have been discussed with the appropriate members of
management, and communicated through Notices of Finding and Recommendation (NFR).
Because of its inherent limitations, internal control over financial reporting may not prevent, or
detect and correct misstatements. Also, projections of any evaluation of effectiveness to future
periods are subject to the risk that controls may become inadequate because of changes in
conditions, or that the degree of compliance with the policies or procedures may'deteriorate. We
aim to use our knowledge ofFEMA gained during our audit engagement to make comments and
suggestions that are intended to improve internal control over financial reporting or result in other
operating efficiencies. We have not considered internal control since the date of our Independent
Auditors 'Report.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key FEMA financial systems and IT infrastructure within the scope of our
engagement to audit the FY 2010 DRS financial statements in Appendix A; a description of each
internal control finding in Appendix B; and the current status of the prior year NFRs in Appendix C.
Our comments related to certain additional matters have been presented in a separate letter to the
Office ofInspector General and the FEMA Chief Financial Officer.

FEMA's written response to our comments and recommendations, presented in Appendix D, has
notbeen subjected to auditing procedures and, accordingly, we express no opinion on it.

This communication is intended solely for the information and use of DRS and FEMA
management, DRS Office ofInspector General, U.S. Office of Management and Budget, U.S.
Government Accountability Office, and the U.S. Congress, and is not intended to be and should not
be used by anyone other than these specified parties.

Very truly yours,




 Information Technology Management Letter for the FEMA Component of the FY 2010 DHS
 

                              Financial Statement Audit
 

                             Department of Homeland Security
 

                         Federal Emergency Management Agency 
 

                         Information Technology Management Letter
                                    September 30, 2010

                   INFORMATION TECHNOLOGY MANAGEMENT LETTER
                                    TABLE OF CONTENTS
                                                                                              Page
Objective, Scope, and Approach 
                                                                1


Summary of Findings and Recommendations                                                         3
 


IT General Control Findings and Recommendations                                                 4
 

     Configuration Management                                                                   4

     Security Management                                                                        5

     Access Controls                                                                            8

     Segregation of Duties                                                                      9

     Contingency Planning                                                                       9


Application Controls                                                                           14
 


Management’s Comments and OIG Response 

                                                                                               14


                                             APPENDICES

Appendix                                       Subject                                        Page
   A	 	    Description of Key Federal Emergency Management Agency Financial Systems and 

           IT Infrastructure within the Scope of the FY 2010 DHS Financial Statement Audit     15
 

           Engagement 


   B	 	    FY 2010 Notices of IT Findings and Recommendations at the Federal Emergency         18
 

           Management Agency
 

           �	 Notice of Findings and Recommendations – Definition of 

                   Severity Ratings                                                            19
 


   C	 	    Status of Prior Year Notices of Findings and Recommendations and Comparison to 

           Current Year Notices of Findings and Recommendations at the Federal Emergency       76
           Management Agency
   D	 	    Management’s Comments 	                                                             78
 





Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 

                             Financial Statement Audit 

                              Department of Homeland Security
 

                          Federal Emergency Management Agency 
 

                          Information Technology Management Letter
                                     September 30, 2010

                           OBJECTIVE, SCOPE, AND APPROACH

In connection with our engagement to audit the Department of Homeland Security’s (DHS or
department) balance sheet as of September 30, 2010 and the related statement of custodial activity
for the year then ended, we performed an evaluation of information technology general controls
(ITGC) at the Federal Emergency Management Agency (FEMA), to assist in planning and
performing our audit. The Federal Information System Controls Audit Manual (FISCAM), issued
by the Government Accountability Office (GAO), formed the basis of our ITGC evaluation
procedures. The scope of the ITGC evaluation is further described in Appendix A.
FISCAM was designed to inform financial auditors about IT controls and related audit concerns to
assist them in planning their audit work and to integrate the work of auditors with other aspects of
the financial audit. FISCAM also provides guidance to IT auditors when considering the scope and
extent of review that generally should be performed when evaluating general controls and the IT
environment of a federal agency. FISCAM defines the following five control functions to be
essential to the effective operation of the general IT controls environment:
�	 Security Management (SM) – Controls that provide a framework and continuing cycle of
   activity for managing risk, developing security policies, assigning responsibilities, and
   monitoring the adequacy of computer-related security controls.
�	 Access Control (AC) – Controls that limit or detect access to computer resources (data,
   programs, equipment, and facilities) and protect against unauthorized modification, loss, and
   disclosure.
�	 Configuration Management (CM) – Controls that help to prevent unauthorized changes to
   information system resources (software programs and hardware configurations) and provide
   reasonable assurance that systems are configured and operating securely and as intended.
�	 Segregation of Duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to manage who can control key aspects of computer-related operations.
�	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.
To complement our general IT controls audit procedures, we also performed technical security
testing for key network and system devices, as well as testing over certain key financial application
controls in the FEMA environment. The technical security testing was performed from within a
select FEMA facility and focused on production devices that directly support FEMA’s financial
processing and key general support systems. Limited social engineering and after-hours physical
security testing was also included in the scope of technical security testing.
Additionally, during FY 2009, we were informed by FEMA management that the Grants &
Training (G&T) Integrated Financial Management Information System (IFMIS) and Core IFMIS
versions would be merged into one system. Between October 1, 2009 and February 22, 2010, G&T
and Core IFMIS were both operational and used to process FEMA financial data. As a result, we
performed testing for both the Core and G&T IFMIS versions.




Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 

                             Financial Statement Audit 
 

                                       Page 1 
 

                              Department of Homeland Security
 

                          Federal Emergency Management Agency 
 

                          Information Technology Management Letter
                                     September 30, 2010

On February 23, 2010, FEMA suspended the use of the G&T IFMIS version and had completed the
final changes to Core IFMIS which would then become IFMIS-Merger. We were informed that the
final IFMIS-Merger version went live on February 23, 2010 and is now the system of record.
Therefore, for the purposes of this letter, the audit testwork conducted over general controls and
weaknesses identified for Core IFMIS are reported as part of controls over IFMIS-Merger.
In addition to testing FEMA’s general control environment, we performed application control tests
on a limited number of FEMA’s financial systems and applications, specifically those supporting
the National Flood Insurance Program (NFIP). The application control testing was performed to
assess the controls that support the financial systems’ internal controls over the input, processing,
and output of financial data and transactions. Application Controls (APC) are the structure,
policies, and procedures that apply to separate, individual application systems, such as accounts
payable, inventory, or payroll.




Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 

                             Financial Statement Audit 
 

                                       Page 2 
 

                              Department of Homeland Security
 

                          Federal Emergency Management Agency 
 

                          Information Technology Management Letter
                                     September 30, 2010

                  SUMMARY OF FINDINGS AND RECOMMENDATIONS

During fiscal year (FY) 2010, FEMA took corrective action to address certain prior year IT control
weaknesses. For example, FEMA made improvements over implementing certain logical and
physical access controls over NFIP information systems, as well as development and maintenance
of the inventory of FEMA Chief Financial Officer (CFO)-designed financial management systems.
However, during FY 2010, we continued to identify ITGC weaknesses that could potentially impact
FEMA’s financial data. The most significant weaknesses from a financial statement audit
perspective related to controls over security management, access control, configuration
management , and contingency planning for the IFMIS-Merger, G&T IFMIS, the National
Emergency Management Information System (NEMIS), Payment and Reporting System (PARS),
Traverse, Transaction Record Reporting and Processing (TRRP), and associated General Support
System (GSS) environments, as well as weaknesses over physical security and security awareness.
Collectively, the ITGC weaknesses limited FEMA’s ability to ensure that critical financial and
operational data were maintained in such a manner to ensure confidentiality, integrity, and
availability. In addition, these weaknesses negatively impacted the internal controls over FEMA
financial reporting and its operation, and we consider them to collectively contribute to a material
weakness at the DHS level under standards established by the American Institute of Certified Public
Accountants. In addition, based upon the results of our test work, we noted that FEMA did not fully
comply with the requirements of the Federal Financial Management Improvement Act of 1996.
Of the 63 findings identified during our FY 2010 testing, 50 were repeat findings, either partially or
in whole from the prior year, and 13 were new IT findings. These findings represent weaknesses in
each of the five FISCAM key control areas.
The majority of findings resulted from the lack of properly designed, detailed, and consistent
guidance over financial system controls to enforce DHS Sensitive Systems Policy Directive 4300A,
Information Technology Security Program, requirements and National Institute of Standards and
Technology (NIST) guidance. Specifically, the findings stem from: 1) the lack of formal
designation of financial system security responsibilities, 2) inadequately designed and operating
access control policies and procedures relating to the management of access to financial
applications, databases, and support systems, and supervisor recertification of user access
privileges, 3) insufficient logging of system events and monitoring of audit logs, 4) inadequately
designed and operating configuration management policies and procedures, 5) patch, configuration,
and vulnerability management control deficiencies within the system, 6) financial systems that were
not properly certified and accredited and authorized to operate, and 7) the lack of adequately
documented or tested contingency plans. These weaknesses may increase the risk that the
confidentiality, integrity, and availability of system controls and FEMA financial data could be
exploited, thereby compromising the integrity of FEMA financial data used by management and
reported in the DHS financial statements.
While the recommendations made by us should be considered by FEMA, it is the ultimate
responsibility of FEMA management to determine the most appropriate method(s) for addressing
the weaknesses identified based on their system capabilities and available resources.




Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 

                             Financial Statement Audit 
 

                                       Page 3 
 

                             Department of Homeland Security
 

                         Federal Emergency Management Agency 
 

                         Information Technology Management Letter
                                    September 30, 2010

            IT GENERAL CONTROL FINDINGS AND RECOMMENDATIONS

Findings:
During the FY 2010 DHS financial statement audit engagement, we identified the following
financial system ITGC deficiencies at FEMA that collectively contribute to an IT material weakness
at the department level. Our findings focused on financial systems controls as testing over IT
system functionality could not be conducted.

Configuration Management:
   �	 Documented and approved procedures that establish formal requirements, processes, and
      responsibilities for performing regular vulnerability scans of NEMIS, IFMIS-Merger and
      G&T IFMIS had not been developed and implemented. Additionally, during periodic
      internal scans, vulnerabilities identified and related corrective actions were not reported and
      tracked via the Plan Of Action &Milestones (POA&M) process in accordance with DHS
      policy.
   �	 Formal procedures for conducting internal scans of the NFIP Local Area Network (LAN)
      supporting Traverse were not developed, and scans were not conducted by FEMA or NFIP
      contractor management. Additionally, a formal process did not exist for the remediation of
      vulnerabilities identified during internal scans to ensure that the vulnerabilities were tracked
      and monitored via the POA&M process.
   �	 The list of NEMIS servers currently scanned internally by FEMA is incomplete and does
      not represent the current NEMIS system boundary. Additionally, NEMIS system owners
      are not receiving listings of all vulnerabilities noted on their system components to ensure
      corrective action is assigned for tracking and remediation.
   �	 The Standard Operating Procedure (SOP) for monitoring sensitive access to NEMIS
      operating system software was not implemented and did not include all NEMIS operating
      system servers that were within scope. Additionally, no application or tool was in place to
      support the audit logging function on the NEMIS servers.
   �	 NEMIS configuration management is not adequately and centrally controlled, documented,
      or managed throughout the lifecycle of the FEMA configuration management process.
      Additionally, implemented emergency and non-emergency changes to NEMIS system
      software were not consistently documented, tested, approved, controlled, tracked, and
      retained on file.
   �	 No formalized change management procedures exist for deploying changes to the NEMIS
      production environment to ensure that the movement of production code for NEMIS is
      appropriately controlled. Additionally, evidence could not be provided that management
      had appropriately restricted and controlled access to the NEMIS production application,
       web, and database servers for the deployment of changes.
   �	 G&T IFMIS contracted developers/programmers were granted unrestricted access to the
      production environment through the “ifmiscm” account, which was used to deploy changes
      into production.


Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 

                             Financial Statement Audit 
 

                                       Page 4 
 

                            Department of Homeland Security
 

                        Federal Emergency Management Agency 
 

                        Information Technology Management Letter
                                   September 30, 2010

   �	 Comprehensive configuration baselines for all relevant network devices such as firewalls,
      routers, and switches that support in-scope financial systems had not been established.
      Furthermore, configuration management policies and procedures did not include
      comprehensive requirements for the frequency, documentation and performance of
      monitoring audits for these baselines to ensure that configuration items (CIs) within the
      scope of the IFMIS-Merger and NEMIS systems are documented and monitored in
      accordance with FEMA policy.
   �	 Adequate segregation of duties controls had not been established for the movement of
      IFMIS-Merger changes into production as the IFMIS-Merger developer migrates changes
      into production. Additionally, formal procedures were not implemented to require
      monitoring of developers’ changes to IFMIS-Merger directories and sub-directories to
      review and validate implemented changes. Furthermore, informal reviews of developer
      activities that were conducted did not provide enough information to ensure that the
      approved changes were implemented.
   �	 Throughout the lifecycle of the project to merge G&T IFMIS and Core IFMIS to IFMIS-
      Merger, FEMA management did not adequately define, implement, and integrate the
      required elements of the DHS System Engineering Life Cycle (SELC) process. We noted
      that the project lacked defined project review stages and approvals, system security
      requirements and milestones were not documented and integrated into the project plan, and
      a Data Migration Plan and Testing Strategy could not be provided.
   �	 The configuration management plans for IFMIS-Merger, Traverse, and TRRP did not
      comprehensively provide guidance to address all configuration management control
      elements required by FEMA and DHS policy for standard and emergency changes.
   �	 TRRP changes were not approved prior to development and implementation into 
 

      production.
 

   �	 Formal patch management procedures for approving, testing, and ensuring timely
      installation of operating system patches for NEMIS, IFMIS-Merger, and G&T IFMIS were
      not developed and finalized until April 2010. Additionally, FEMA had not fully and
      consistently implemented the requirements and procedures documented.
   �	 Documented change management procedures did not include requirements for approving,
      testing, and ensuring timely installation of operating system patches for the NFIP LAN
      supporting Traverse.
   �	 The third-party development vendor was allowed use of NFIP system administrator
      accounts to logon and create sessions for installing Traverse system changes, and a formal
      process was not established for monitoring changes made by the vendor.

Security Management:
   �	 Policies and procedures requiring the completion and tracking of specialized training for
      FEMA employees and contractors with significant information security responsibilities had
      not been established or implemented as required by DHS policy. Additionally, with the
      exception of Information System Security Officers (ISSOs), FEMA had not formally
      identified all individuals or positions that were subject to the training requirements.

Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 

                             Financial Statement Audit 
 

                                       Page 5 
 

                            Department of Homeland Security
                        Federal Emergency Management Agency
                        Information Technology Management Letter
                                   September 30, 2010

   �	 G&T IFMIS was not certified and accredited prior to implementation into the production
      environment in FY 2007 and had been operating without an Authorization to Operate
      (ATO) for the majority of FY 2010.
   �	 Web and application servers for PARS had not been certified and accredited, and the PARS
      database operated for the majority of FY 2010 without an adequate ATO.
   �	 ISSOs were not formally designated for G&T IFMIS and PARS for the majority of the
      fiscal year.
   �	 Certification and accreditation (C&A) activities for IFMIS-Merger and NEMIS were not
      completed in accordance with DHS and NIST requirements.
   �	 The FEMA Switch Network (FSN)-2 C&A package was not completed in compliance with
      DHS and NIST requirements and had not been updated to reflect the current operating
      environment. Additionally, the ATO expired in January 2010 and was not renewed. As a
      result, the FSN-2 GSS was operating without a valid ATO.
   �	 Although the FSN-2 C&A package references various subsystems supporting and hosting
      IFMIS and NEMIS, FEMA management was unable to identify and confirm the FSN-2
      subsystems (including regional LANs) that host all the production servers for NEMIS and
      IFMIS applications.
   �	 The system security plan (SSP) for NEMIS did not fully document the systems boundaries,
      define all subsystems and major applications, or document the assignment of FEMA
      personnel with security responsibilities for all system components.
   �	 The C&A for the legacy NFIP IT system pertaining to the Traverse application, TRRP
      application, and NFIP LAN had not been certified and accredited or fully authorized for
      operation, in accordance with DHS policy for FY 2010.
   �	 Procedures for managing FEMA IT security incidents were not developed, approved, and
      implemented, in accordance with DHS policy.
   �	 Entity-level corrective actions to integrate and develop sufficient and effective methods of
      communication to ensure that significant financial-related system development and
      acquisition projects involve all relevant stakeholders, including the Office of the Chief
      Financial Officer (OCFO), had not been established. Additionally, FEMA management had
      not taken action to enhance and further develop current acquisition management processes
      to ensure that organization-specific requirements exist and are implemented so that each
      project meets organizational mission needs and functional and technical requirements as
      required by DHS and NIST guidance.
   �	 IT security management responsibilities were not consistently or adequately assigned and
      performed over the FEMA POA&M process for FY 2009 IT audit findings, in accordance
      with DHS guidance.
   �	 Suitability investigations for FEMA federal employees and contractors were not
      appropriately conducted, and position sensitivity levels associated with employees and
      contractors with elevated system privileges did not have appropriate position sensitivity
      designations. Additionally, formal procedures were not developed or implemented for
      conducting suitability screenings for contractors accessing DHS IT systems.
Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 

                                   Financial Statement Audit 
 

                                             Page 6 
 

                                Department of Homeland Security
 

                            Federal Emergency Management Agency 
 

                            Information Technology Management Letter
                                       September 30, 2010

    �	 FEMA did not have a process for centrally tracking the status of contractors or an effective
       and formal process for notifying the Office of the Chief Information Officer (OCIO) of
       changes in contractor status so that contractor user accounts could be appropriately
       disabled, removed, or modified in a timely manner.
Related to security management, we performed after-hours physical security testing to identify risks
related to non-technical aspects of IT security. These non-technical IT security aspects included
physical access to media and equipment that housed financial data and information residing on a
FEMA employee’s / contractor’s desk which could be used by others to gain unauthorized access to
systems housing financial information. The specific results are listed below:

                                              FEMA Locations Tested                      Total
                                    Washington                                       Exceptions by
       Exceptions Noted            Design Center Patriots Plaza   TechWorld              Type
  Passwords                              5             3              3                   11
  For Official Use Only
                                        0                1                0                    1
  (FOUO)
  Keys                                  0                0                0                    0
  Personally Identifiable
                                        3                2                3                    8
  Information (PII)
  External Drives                       0                0                1                    1
  Server Names/ IP Addresses            2                2                0                    4
  Credit Card Numbers                   0                1                1                    2
  Classified Documents                  0                0                0                    0
  Other                                 1                2                3                    6

  Total by Location                     11              11                11               33


To complement FY 2010 security management audit procedures, social engineering testing was
conducted. Social engineering is defined as the act of attempting to manipulate or deceive
individuals into taking action that is inconsistent with DHS policies, such as divulging sensitive
information or allowing / enabling computer system access. The term typically applies to trickery
or deception for the purpose of information gathering or gaining computer system access. During
the social engineering testing, several personnel provided us with user IDs and/or passwords. The
specific results of our testing are documented in the table below:

                                                               # of Personnel       # of Personnel
                                      # of Personnel Who
   Testing     Total      Total                                Who Provided        Who Provided
                                      Provided Their User
    Date       Called    Answered                              Their User ID       Their Password
                                       ID and Password
                                                                    Only                 Only
 07/08/2010      25           11               2                      4                    0

 08/11/2010      34           11               1                      8                    1


Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 
 

                             Financial Statement Audit 
 

                                       Page 7 
 

                            Department of Homeland Security
 

                        Federal Emergency Management Agency 
 

                        Information Technology Management Letter 
 

                                   September 30, 2010

Access controls:
   �	 Password, security patch management, and configuration deficiencies were identified
      during the vulnerability assessment on hosts supporting the key financial applications and
      general support systems.
   �	 TRRP, IFMIS-Merger, G&T IFMIS, NEMIS, and PARS application and/or database
      accounts, network accounts, and remote user accounts were not periodically reviewed for
      appropriateness and/or were not fully and accurately recertified in accordance with FEMA
      and DHS policy, resulting in inappropriate authorizations and excessive user access
      privileges. For G&T IFMIS, we determined that recertification of user accounts had not
      been conducted since the application was implemented at FEMA in FY 2007.
   �	 IFMIS-Merger, G&T IFMIS, and NEMIS application accounts, network accounts, and
      remote user accounts were not disabled or removed promptly upon personnel termination.
   �	 Initial and modified access granted to IFMIS-Merger, G&T IFMIS and PARS financial
      application and/or database, network, and remote users was not properly documented and
      authorized.
   �	 Documented procedures for auditing NEMIS, IFMIS-Merger, G&T IFMIS, and PARS
      databases were not comprehensive and did not meet DHS requirements. Additionally, for
      these financial systems and the NFIP LAN and TRRP, logging of operating system,
      application, and/or database events required to be recorded were not enabled for some or all
      of the events, audit logs were not appropriately reviewed and/or were reviewed by those
      with conflicting roles, and evidence of audit log reviews was not retained.
   �	 Strong password requirements were not enforced on the NEMIS, IFMIS-Merger, G&T
      IFMIS, and PARS databases and the FEMA LAN.
   �	 FEMA’s process for authorizing and managing remote virtual private network (VPN)
      access to external state emergency management agencies and FEMA contractors did not
      comply with DHS and FEMA requirements. Specifically, existing documentation did not
      define the requirements for administering the site survey process with external
      organizations seeking VPN access or identify FEMA roles and responsibilities for
      managing VPN access granted to external individuals using non-DHS equipment to access
      the FEMA network.
   �	 A formalized process for modifying IFMIS-Merger system security functions to ensure that
      appropriate privileges are created, documented, approved, and monitored did not exist.
   �	 Two-factor authentication was not used for VPN access, as required by DHS policy.
   �	 System administrator root access to IFMIS-Merger and G&T IFMIS were not properly
      restricted, logged, and monitored.
   �	 Emergency and temporary access to the IFMIS-Merger and G&T IFMIS databases was not
      properly authorized, and contractor development personnel were granted conflicting access
      to implement database changes.



Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 

                             Financial Statement Audit 
 

                                       Page 8 
 

                             Department of Homeland Security
 

                         Federal Emergency Management Agency 
 

                         Information Technology Management Letter 
 

                                    September 30, 2010

Segregation of Duties:
   �	 Access was inappropriately granted to NEMIS developers to allow unrestricted access to
      both the production and development code in the Test and Development Laboratory (TDL)
      environment, and NEMIS code approved for implementation was not locked down within
      the TDL environment prior to deployment to production to further restrict developer access.
   �	 Additional segregation of duties weaknesses were noted in other FISCAM areas.
      Specifically, weaknesses in those areas pertain to access controls over audit log reviews and
      configuration management controls for migrating code into production. See those
      respective sections for additional information.
Contingency Planning:
   �	 An alternate processing site for NEMIS was not established and implemented.
      Additionally, an exception to DHS policy for the lack of an established alternate processing
      site, as required for systems such as NEMIS that are categorized as “high impact” for
      availability, had not been requested by FEMA.
   �	 Documented procedures that outline processes for performing backups of NEMIS
      production databases and for rotating and physically securing backup tapes off-site had not
      been formally defined. Additionally, evidence that all databases were being backed up
      could not be provided.
   �	 NEMIS backup tapes were not regularly tested in accordance with FEMA and DHS policy.
   �	 Full scale testing of the NEMIS contingency plan was not conducted, and the plan did not
      adequately and comprehensively include information for fully restoring NEMIS in
      accordance with requirements for high impact availability systems or accurately include
      NEMIS system architecture information.
   �	 The existing NFIP LAN and Traverse contingency plan was not updated and in compliance
      with DHS and NIST requirements. Additionally, the plan had not been tested within the
      past 12 months, and no alternate processing site had been identified.
   �	 A documented and approved IT contingency plan for the mainframe environment
      supporting the TRRP system has not been completed, and contingency testing over TRRP
      was not sufficiently conducted in accordance with DHS and NIST requirements.
   �	 The NFIP contractor’s Continuity of Operations Planning (COOP) for Traverse and TRRP
      could not be provided for auditor review.

Recommendations:
No recommendations are required for the G&T IFMIS portions of the conditions noted above as the
system was decommissioned in June 2010. We recommend that the FEMA Chief Information
Officer (CIO) and Chief Financial Officer (CFO), in coordination with the DHS OCFO and the
DHS OCIO, make the following improvements to FEMA’s financial management systems and
associated information technology security program.



Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 

                             Financial Statement Audit 
 

                                       Page 9 
 

                             Department of Homeland Security
 

                         Federal Emergency Management Agency 
 

                         Information Technology Management Letter 
 

                                    September 30, 2010

For Configuration Management:
   �	 Develop, finalize, and implement formal procedures over NEMIS and IFMIS-Merger
      operating systems and the NFIP LAN supporting Traverse for: (1) conducting periodic
      internal vulnerability scans of FEMA and NFIP financial systems; (2) assessing, reporting,
      tracking, and monitoring correcting vulnerabilities identified during internal scans; and (3)
      ensuring procedures are implemented for all components of the systems;
   �	 Revise, implement, and ensure adherence to the SOP for monitoring sensitive access to
      NEMIS operating system software to ensure that the scope of the procedures includes all
      defined NEMIS servers, and deploy the appropriate tool(s) to support audit logging
      functions on the NEMIS servers, in accordance with FEMA and DHS policy;
   �	 Develop and implement configuration management policies and procedures for NEMIS
      emergency and non-emergency changes to financial systems application software, and
      ensure consistent adherence with requirements for approving, testing, documenting,
      properly controlling and tracking changes, and retaining related documentation;
   �	 Document and implement a formalized process and procedures for deploying NEMIS 

      changes to ensure that the movement of production code for the NEMIS production 

      environment is appropriately controlled; 

   �	 Revise and implement configuration management policies and procedures over
      documenting and maintaining current baseline configurations for network devices
      supporting financial applications, including IFMIS-Merger and NEMIS, to ensure DHS and
      FEMA requirements are adequately addressed and configuration baselines are
      comprehensively documented by FEMA. Additionally, policies and procedures should
      include guidance over requirements such as roles and responsibilities, documentation of
      baselines, periodic review and auditing, and approval of baseline changes for network
      devices;
   �	 Limit IFMIS-Merger developer access to the production environment to “read only,” and
      segregate the responsibility for deploying application code changes into production from
      the development contractor to an independent control group. If business needs require that
      the segregation of duties cannot be immediately implemented, develop and implement
      formal procedures for conducting periodic reviews of IFMIS-Merger developer changes to
      financial application directories and sub-directories to verify that only authorized changes
      are implemented into production and for retaining evidence of reviews conducted on file;
   �	 Conduct and document a lessons learned report related to the IFMIS-Merger project per
      DHS SELC guidance;
   �	 Update the current versions of IFMIS-Merger, Traverse, and TRRP configuration
      management plans and procedures to comprehensively address DHS and FEMA
      requirements. Additionally, ensure the implementation of updated versions of the current
      IFMIS-Merger, Traverse, and TRRP configuration management procedures. The
      procedures should require initial approvals of change requests and establish a process for
      obtaining Change Control Board and Technical Review Committee approvals prior to
      implementing standard and emergency changes into production;


Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 

                             Financial Statement Audit 
 

                                      Page 10 
 

                             Department of Homeland Security
 

                         Federal Emergency Management Agency 
 

                         Information Technology Management Letter
                                    September 30, 2010

   �	 Dedicate the appropriate resources to complete efforts to further document and fully
      implement comprehensive patch management policies and procedures for NEMIS and
      IFMIS-Merger;
   �	 Document, finalize, and implement comprehensive patch management policies and
      procedures that outline requirements for authorizing, testing, and installing required patches
      for the NFIP LAN operating system supporting Traverse; and

   �	 Limit Traverse development vendor access to the production environment to “read only,”
      and segregate the responsibility for deploying application code changes into production
      from the development contractor to an independent control group. If business needs require
      that the segregation of duties cannot be immediately implemented, establish a separate
      account for use by the NFIP third-party development vendor when implementing Traverse
      changes that is limited to activation on an as-needed basis, and establish a process for
      monitoring and verifying that configuration changes by the vendor are implemented and
      documented in accordance with policy.
For Security Management:
   �	 Develop and implement policies and procedures requiring initial and periodic specialized
      training for individuals with significant information security responsibilities. Policies and
      procedures should identify specific roles and positions possessing significant information
      security responsibilities that are subject to specialized training requirements and include
      requirements for tracking training;
   �	 Certify and accredit all components of PARS in accordance with applicable DHS policies
      and Federal guidance, and formally designate an ISSO for all components of the system;
   �	 Update and complete all required C&A artifacts for NEMIS, IFMIS-Merger, Traverse,
      TRRP, the NFIP LAN and FSN-2 in accordance with DHS policy and NIST guidance.
      Additionally, ensure that C&A artifacts, including the risk assessment or the results of the
      required risk assessment activities, the Security Testing and Evaluation (ST&E), and the
      Security Assessment Report (SAR) are conducted and documented over all components of
      the systems in accordance with established DHS baseline controls according to the security
      categorization of the system;
   �	 Ensure that the NEMIS SSP is updated in accordance with DHS policy so that the system’s
      boundaries, components, and roles and responsibilities are properly defined and
      documented. Additionally, implement a formal process for periodically reviewing and
      assessing system documentation to ensure software and hardware components are
      accurately reflected;
   �	 Develop and implement approved procedures for managing security incidents that clearly
      outline roles and responsibilities required to maintain a continuous incident response
      capability, and provide training to all personnel with assigned roles and responsibilities;
   �	 Define and implement formal and repeatable processes to ensure that financial systems
      development and acquisition projects are conducted in compliance with DHS SELC and
      acquisition requirements and Federal guidance;


Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 

                             Financial Statement Audit 
 

                                      Page 11 
 

                            Department of Homeland Security
 

                        Federal Emergency Management Agency 
 

                        Information Technology Management Letter
                                   September 30, 2010

   �	 Establish and document a formalized process to provide IT security management oversight
      to ensure that adequate periodic review and assessment of security controls are performed
      and corrective actions are appropriately assigned and implemented over identified security
      weaknesses through the POA&M process;
   �	 Further refine processes to ensure that background investigations for all types of federal
      employees and contractors are performed, and reevaluate and assign the correct position
      sensitivity levels for federal employees and contractors with access to DHS information
      systems. FEMA Acquisitions, FEMA Personnel Security, and FEMA IT should also work
      together to implement procedures to ensure a more centralized and coordinated process for
      tracking and completing background investigations over contractor personnel, in
      accordance with DHS policy;
   �	 Document and implement procedures for tracking contractor on-boards, transfers, and
      separations that include assignment of roles and responsibilities to appropriate FEMA
      management and stakeholders and steps for notifying the OCIO and system owners of
      changes in contractor status that require changes to user access; and
   �	 Review the effectiveness of existing security awareness programs designed to protect
      “need-to-know” information, including IT system access credentials, electronic and
      physical data, PII, and FOUO agency information, and ensure that individuals are
      adequately instructed and reminded of their roles in the protection of sensitive system
      information from unauthorized individuals through formal, periodic communications and/or
      security awareness training.
For Access Controls:
   �	 Implement the specific vendor-recommended corrective actions detailed in the Notice of
      Finding and Recommendation (NFR) that was issued for deficiencies identified during our
      vulnerability assessment;
   �	 Fully establish and/or implement user account management recertification processes and
      require completion of periodic reviews of all user accounts for appropriate access and
      documentation of current user profiles on IFMIS-Merger, NEMIS, TRRP, and PARS as
      well as the FEMA/NFIP networks and remote user accounts. The processes should include
      revocation of accounts that cannot be verified during recertification processes;
   �	 Update, as necessary, and consistently implement procedures and processes to ensure that
      all system accounts, including remote access accounts, of terminated employees and
      contractors are immediately removed/disabled upon their departure;
   �	 Review and revise existing procedures to require documented authorization of new and
      modified user accounts by supervisors, program managers, and contracting officers’
      technical representatives in accordance with DHS requirements;
   �	 Revise and implement detailed procedures requiring the consistent and timely review of
      IFMIS-Merger, NEMIS, and PARS database and financial application logs and the
      maintenance of documentation supporting such reviews in accordance with DHS
      requirement. These procedures should also incorporate segregation of duties principles;


Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 

                             Financial Statement Audit 
 

                                      Page 12 
 

                             Department of Homeland Security
 

                         Federal Emergency Management Agency 
 

                         Information Technology Management Letter
                                    September 30, 2010

   �	 Configure audit logs for financial databases and applications to ensure that auditable events,
      as required by DHS policy, are recorded and appropriately reviewed by personnel without
      conflicting duties, and sufficient evidence is retained;
   �	 Configure NEMIS, IFMIS-Merger, and PARS databases and FEMA LAN accounts to
      enforce strong password and authenticator control requirements, and ensure that individuals
      with system/database administration and security responsibilities are aware of and properly
      trained in DHS, FEMA, and Federal requirements;
   �	 Revise and implement policies and procedures for documenting, reviewing, and approving
      the security controls in place over non-DHS equipment connecting to the FEMA network
      via VPN access, and ensure that roles, responsibilities, and security requirements for
      authorizing and managing VPN access for external organizations connecting to the FEMA
      network are defined and implemented in accordance with DHS and FEMA policy;
   �	 Develop and implement policies and procedures that document the process of adding,
      deleting, and modifying IFMIS-Merger security functions to ensure that the proper controls
      are in place for modifying user account privileges. Additionally, ensure that the use of
      function modification privileges is monitored;
   �	 Implement and require two-factor authentication for all remote access to the FEMA 

      network;

   �	 Develop and implement procedures for monitoring IFMIS system administrator and highly-
      privileged account activities and restricting access to the root account, and ensure that
      reviews of system logs and records are properly conducted; and
   �	 Establish a formal process for granting IFMIS-Merger emergency and temporary database
      access that includes segregation of duties considerations and appropriate approval from
      FEMA management as required by DHS policy.
For Segregation of Duties:
   �	 Develop and implement formal processes and procedures for restricting and monitoring
      access to the NEMIS TDL directories to ensure that the principles of least privilege and
      segregation of duties are enforced. The processes should include requirements over the
      monitoring of NEMIS TDL directories to ensure that no changes have occurred after the
      approval of NEMIS system changes has occurred and should limit developers’ access to the
      approved code for production to “read only.”
For Contingency Planning:
   �	 Complete on-going efforts to establish and implement an alternate processing site for
      NEMIS;
   �	 Ensure that a formal process is established and implemented to fully backup all necessary
      components of the NEMIS database and periodically test NEMIS backup media at a
      frequency that is in accordance with FEMA and DHS policy;
   �	 Update the NEMIS contingency plan in accordance with DHS requirements for high impact
      availability systems, inclusive of accurate system architecture information; conduct


Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 

                             Financial Statement Audit 
 

                                      Page 13 
 

                             Department of Homeland Security
 

                         Federal Emergency Management Agency 
 

                         Information Technology Management Letter
                                    September 30, 2010

        documented annual tests of the plan; and as necessary, update the plan with lessons learned
        from testing;
    �	 Update and appropriately test the NFIP contingency plan pertaining to the NFIP LAN and
       Traverse system, in accordance with DHS requirements; identify alternate processing sites
       for each system; and test fail-over capability at the alternate processing site;
    �	 Develop, document, and fully implement an IT contingency plan for TRRP in accordance
       with DHS requirements; conduct documented annual tests of the plan; and as necessary,
       update the plan with lessons learned from testing; and
    �	 Document, implement, and maintain the NFIP COOP to ensure required elements for
       Traverse and TRRP are included in accordance with DHS guidance for high impact
       systems.

                                 APPLICATION CONTROLS
We concluded that application controls over NEMIS, IFMIS-Merger, G&T IFMIS, and PARS could
not be relied upon for purposes of our FY 2010 audit procedures because of the nature of the
general IT control deficiencies identified and discussed above. As a result, we did not test
application controls for these financial systems. However, we conducted certain application control
testing over key financial systems supporting NFIP. Based on the testwork conducted, we did not
identify any findings in the area of application controls related to NFIP during the FY 2010 DHS
financial statement audit engagement.


                  MANAGEMENT’S COMMENTS AND OIG RESPONSE
We received written comments on a draft of this report from FEMA’s Chief Information Officer.
Generally, FEMA agreed with our findings and recommendations. FEMA’s management has
developed a remediation plan to address these findings and recommendations. A copy of the
comments is included in Appendix D.

OIG Response
We agree with the steps that FEMA’s management is taking to satisfy these recommendations.




Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 
 

                             Financial Statement Audit 
 

                                      Page 14 
 

                                                                       Appendix A
                         Department of Homeland Security

                     Federal Emergency Management Agency 

                     Information Technology Management Letter 

                                September 30, 2010




                                 Appendix A 
 



 Description of Key Federal Emergency Management Agency 
 

Financial Systems and IT Infrastructure within the Scope of the 
 

    FY 2010 DHS Financial Statement Audit Engagement 
 





Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 

                             Financial Statement Audit 
 

                                      Page 15 
 

                                                                                         Appendix A
                              Department of Homeland Security
                          Federal Emergency Management Agency
                          Information Technology Management Letter
                                     September 30, 2010

Below is a description of significant FEMA financial management systems and supporting IT
infrastructure included in the scope of the DHS FY 2010 financial statement audit engagement.


Locations of Testing FEMA Headquarters in Washington, D.C.; the Mount Weather Emergency
Operations Center in Bluemont, Virginia; IT operations in Winchester, Virginia; NFIP in Crystal
City, Virginia; and the NFIP contractor location in Lanham, Maryland (which was later moved in
August 2010 to Landover, Maryland).

Systems Subject to Audit:

Core Integrated Financial Management Information System (IFMIS) 1 (Operational through
February 22, 2010) Core IFMIS was the key financial reporting system and had several feeder
subsystems (budget, procurement, accounting, and other administrative processes and reporting).
The application was a Commercial Off-The Shelf (COTS) software package developed and
maintained by Digital Systems Group Incorporated (DSG).

Grants and Training (G&T) IFMIS 2 (Operational through February 22, 2010) In April 2007, the
Office of G&T that was previously under the Department of Justice was transferred to FEMA. Due
to the short amount of time given to FEMA to take over the financial management role for G&T in
FY 2007, a separate instance of IFMIS was inherited from the Department of Justice, resulting in
two separate IFMIS instances at FEMA. G&T IFMIS held all former G&T financial information.
The application was a COTS software package developed and maintained by DSG.

IFMIS-Merger 3 (Operational beginning February 23, 2010) IFMIS-Merger is the official
accounting system of FEMA and maintains all financial data for internal and external reporting.
IFMIS-Merger is comprised of five subsystems: Funding, Cost Posting, Disbursements, Accounts
Receivable, and General Ledger. The application is a COTS software package developed and
maintained by DSG.




1
  During FY 2009, FEMA management reported that the G&T IFMIS and Core IFMIS versions would be
merged into one system. Between October 1, 2009 and February 22, 2010, G&T and Core IFMIS were both
operational and used to process FEMA financial data. On February 23, 2010, FEMA suspended the use of the
G&T IFMIS version and had completed the final changes to Core IFMIS which would then become IFMIS-
Merger. The final IFMIS-Merger version went live on February 23, 2010 and is now the system of record.
2
  G&T IFMIS was decommissioned in June 2010 after the merger of G&T IFMIS and Core IFMIS in
February 2010.
3
  On February 23, 2010, the final IFMIS-Merger version went live on February 23, 2010 and is now the
system of record.
    Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 

                                 Financial Statement Audit 
 

                                          Page 16 
 

                                                                                          Appendix A
                                 Department of Homeland Security
                             Federal Emergency Management Agency
                             Information Technology Management Letter
                                        September 30, 2010


Payment and Reporting System (PARS)
 PARS is a standalone web-based application. The PARS database resides on the IFMIS-Merger
UNIX server 4 . Through its web interface, PARS collects Standard Form 425 (SF-425) information
from grantees and stores the information in its Oracle 9i database. Automated chronologic jobs are
run daily to update and interface grant and obligation information between PARS and IFMIS-
Merger. All payments to grantees are made through IFMIS-Merger. Prior to the IFMIS-Merger
instance in February 2010, the PARS application interfaced with G&T IFMIS.

National Emergency Management Information System (NEMIS)
 

NEMIS is a FEMA-wide system of hardware, software, telecommunications, services, and 
 

applications. NEMIS consists of many integrated subsystems distributed over hundreds of 
 

separate servers accessed by thousands of client workstations.
 

NEMIS is an integrated system to provide FEMA, the states, and other federal agencies with
automation to perform disaster related operations. NEMIS supports all phases of emergency
management and provides financial related data to IFMIS via an automated interface.

Traverse
Traverse is the general ledger application currently used by the NFIP Bureau and Statistical Agent
to generate the NFIP financial statements. Traverse is a client-server application that runs on the
NFIP LAN Windows server environment in Landover, Maryland (previously Lanham, Maryland).
The Traverse client is installed on the desktop computers of the NFIP Bureau of Financial Statistical
Control group members.

Transaction Recording and Reporting Processing (TRRP)
The TRRP application acts as a central repository of all data submitted by the Write Your Own
(WYO) companies for the NFIP. TRRP also supports the WYO program, primarily by ensuring the
quality of financial data submitted by the WYO companies to TRRP. TRRP is a mainframe-based
application that runs on the NFIP mainframe logical partition in Norwich, Connecticut.




4
    Prior to the merger of Core IFMIS and G&T IFMIS, PARS resided on the Core IFMIS server.
    Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 
 

                                 Financial Statement Audit 
 

                                          Page 17 
 

                                                                        Appendix B
                         Department of Homeland Security
 

                     Federal Emergency Management Agency 
 

                     Information Technology Management Letter 
 

                                September 30, 2010




                                 Appendix B 
 

 FY 2010 Notices of IT Findings and Recommendations at the 
 

         Federal Emergency Management Agency 
 





Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 

                             Financial Statement Audit 
 

                                      Page 18 
 

                                                                                      Appendix B
                              Department of Homeland Security
                          Federal Emergency Management Agency
                          Information Technology Management Letter
                                     September 30, 2010



Notice of Findings and Recommendations (NFR) – Definition of Severity Ratings:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on
the DHS Consolidated Independent Auditors’ Report.

      1 – Not substantial 

      2 – Less significant 

      3 – More significant 


The severity ratings indicate the degree to which the deficiency influenced the determination of
severity for consolidated reporting purposes.

These ratings are provided only to assist FEMA in the development of its corrective action plans for
remediation of each deficiency.




Information Technology Management Letter for the FEMA Component of the FY 2010 DHS 
 

                             Financial Statement Audit 
 

                                      Page 19 
 

                                                                                                                                                     Appendix B
                                                          Department of Homeland Security
 

                                                      Federal Emergency Management Agency 

                                                      Information Technology Management Letter
                                                                 September 30, 2010

                                                 Notice of Findings and Recommendations – Detail

                                                                                                                                       New     Repeat    Risk
NFR No.                             Condition                                                Recommendation
                                                                                                                                       Issue    Issue   Rating
FEMA-IT­    During FY 2010, FEMA finalized and documented                   �   Complete the initial recertification of all existing             X        3
  10-01     requirements, and initiated automated technical processes           NACS accounts and related positions initiated in
            and controls related to the NEMIS Access Control System             April 2010 to ensure that all active NEMIS
            (NACS) Position Re-Approval Project (NPRP).                         accounts and their associated privileges are
            Specifically, Enterprise Operations Branch personnel have           appropriately authorized; and
            begun systematically expiring position assignments and
            requiring supervisor reauthorization of a subset of NACS        �   Ensure that all NACS accounts and related
            accounts and related positions progressively over a 180             positions are recertified by the user’s appropriate
            day period. Due to the volume of active positions, FEMA             supervisor no less than annually, in accordance
            management stated that the recertification process will             with DHS policy.
            recertify all NACS positions after the 180 days and is
            anticipated to be completed in FY 2011.
            Thus, while we noted that improvements were made by
            developing and implementing an automated process for
            recertifying all NACS accounts and related positions,
            including those related to NEMIS access, initial
            recertification to review and revalidate all NACS accounts
            and positions has still not been completed.
FEMA-IT­    FEMA has not established an alternate processing site for       �   Continue and complete efforts required to                        X        3
  10-02     NEMIS. Additionally, an exception to DHS policy for the             establish and implement an alternate processing
            lack of an established alternate processing site, as required       site for NEMIS according to DHS 4300A.
            for systems such as NEMIS that are categorized as “high
            impact” for availability, has not been requested by FEMA.       �   Until an alternate processing site is established,
                                                                                develop and submit an exception for approval in
                                                                                accordance with DHS policy, and ensure that
                                                                                compensating controls over the alternate
                                                                                processing site have been implemented and are
                                                                                effective,    and    documentation      of    their
                                                                                effectiveness is maintained as auditable records.


           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 20 
 

                                                                                                                                                 Appendix B
                                                          Department of Homeland Security
 

                                                      Federal Emergency Management Agency 

                                                      Information Technology Management Letter 

                                                                 September 30, 2010

                                                                                                                                   New     Repeat    Risk
NFR No.                             Condition                                              Recommendation
                                                                                                                                   Issue    Issue   Rating
FEMA-IT­    The FEMA domain security policy is configured to               �   Configure the FEMA LAN domain security                        X        2
  10-03     enforce activation of a password-protected screensaver on          policy to automatically activate a password-
            end-user workstations after 15 minutes of inactivity, rather       protected screensaver on end-user workstations
            than the five minute inactivity threshold required by DHS          after five minutes of inactivity, consistent with
            policy.                                                            DHS policy.
                                                                           �   Implement appropriate management controls to
                                                                               ensure       timely      communication      and
                                                                               implementation of existing and future DHS
                                                                               information security policy requirements
                                                                               pertaining to the configuration of FEMA end user
                                                                               workstations, and to periodically assess system
                                                                               controls to determine compliance.
FEMA-IT­    As noted during our FY 2009 audit procedures,                  �   Revise the SOP, Monitoring Sensitive Access to                X        3
  10-04     weaknesses exist in processes related to logging,                  NEMIS, to ensure that it states that the scope of
            monitoring, and retaining audit logs on system software            the procedures includes operating systems on all
            and operating systems supporting NEMIS. Specifically,              servers within system boundaries as defined in
            policies and procedures related to the monitoring of               up-to-date NEMIS system documentation.
            activity on system software and operating systems
            supporting NEMIS have not been revised to include all          �   Acquire and deploy appropriate tools on operating
            identified operating systems and IT components that                systems and servers supporting NEMIS to
            comprise the system boundary for the NEMIS application.            generate audit trails and records in accordance
                                                                               with FEMA and DHS policy.
            Additionally, controls have not been configured and
                                                                           �   Implement the SOP, Monitoring Sensitive Access
            appropriately implemented to log, monitor, or retain
                                                                               to NEMIS, by reviewing and retaining audit trails
            sufficiently detailed audit logs for activity on NEMIS
                                                                               and records in accordance with FEMA and DHS
            operating systems and servers.
                                                                               policy.
FEMA-IT­    As identified during the FY 2009 audit engagement, PARS        �   Document and implement a formal process to                    X        3
  10-05     database security controls are not appropriately established       implement appropriate controls to ensure that
            as noted below:                                                    inactive PARS database accounts are disabled in
                                                                               accordance with DHS policy.
             � PARS database accounts are not reviewed to identify

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 21 
 

                                                                                                                                                  Appendix B
                                                         Department of Homeland Security
 

                                                     Federal Emergency Management Agency 

                                                     Information Technology Management Letter 

                                                                September 30, 2010

                                                                                                                                     New     Repeat    Risk
NFR No.                            Condition                                                Recommendation
                                                                                                                                     Issue    Issue   Rating
               accounts that have been inactive for 45 days or more,       �   Configure PARS database accounts in accordance
               as required by DHS policy for high impact systems.              with DHS and FEMA requirements for passwords
           �   Strong passwords and authenticator controls are not             and authenticator controls, including expiration,
               implemented for PARS database accounts in                       reuse, and complexity.
               accordance with FEMA and DHS policy.                        �   Document and implement system-specific
               Specifically:                                                   processes for generating and performing reviews
               �   A minimum password length is not set;                       of PARS database audit logs and retaining
                                                                               auditable evidence of review in accordance with
               �   Password complexity is not enforced to require              FEMA and DHS policy. Additionally, ensure that
                   passwords that include a combination of                     all DHS requirements are met through this
                   upper/lowercase letters, numbers, and special               process, including appropriate supervisory review
                   characters or to restrict the use of dictionary             and segregation of duties principles.
                   words as passwords;
                                                                           �   Configure PARS database audit logs to capture
               �   Reuse of previous passwords is not prohibited;              and retain auditable events in accordance with
                                                                               FEMA and DHS policy.
               �   Passwords are not configured to expire or be
                   changed after a pre-determined length of time;          �   Further define and establish a formal process for
                   and                                                         granting initial access and recertifying access
                                                                               specifically to the PARS database that includes
               �   Accounts are not configured to disable after a              appropriate approval from FEMA management
                   pre-determined number of consecutive invalid                and requirements for temporary and emergency
                   login attempts.                                             access, in accordance with DHS guidance.
           �   System-specific policies and procedures have not
               been developed for the PARS Oracle database, and            Please      see      NFR      FEMA-IT-10-48         for
               existing policies and procedures inherited from the         recommendations related to the periodic review and
               IFMIS application operating environment do not              assessment of security controls in place to ensure that
               adequately describe implementation of FEMA                  corrective actions are appropriately implemented over
               policies for the generation, review, and retention of all   identified security weaknesses.
               required auditable events.
           �   Database audit logs are not configured to capture
               auditable events, including failed login attempts and

          Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                             Page 22 
 

                                                                                                                                        Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                          New     Repeat    Risk
NFR No.                           Condition                                            Recommendation
                                                                                                                          Issue    Issue   Rating
                administrator-level actions, as required by FEMA and
                DHS policy.
            �   Although a periodic recertification of PARS database
                access accounts is performed to ensure that access is
                still necessary and appropriate for each individual,
                policies and procedures over the management of
                accounts on the PARS Oracle database do not specify
                requirements for performing a periodic recertification
                of database accounts to validate the continued
                appropriateness of access. Additionally, the FY 2010
                recertification of PARS Oracle database user accounts
                was not completed consistently and in accordance
                with FEMA requirements. Specifically, of a selection
                of recertification forms for five PARS database user
                accounts requested, four forms recertified access for
                contractors without documented Contracting Officer’s
                Technical Representative (COTR) approval.
            �   Authorization of initial access for the PARS database
                is not consistently completed in accordance with
                FEMA and DHS policy. Specifically, of a selection of
                three PARS database access forms requested:
                �   Two user accounts were granted to contractors
                    without the required COTR signature.
                �   One account was identified by Financial Systems
                    Section (FSS) personnel as an IFMIS system
                    account. However, no documentation justifying
                    or authorizing the use of this system account was
                    provided.
FEMA-IT­    During the FY 2010 audit engagement, we noted that           Configure all NEMIS Oracle databases to ensure             X        3
  10-06     FEMA has made improvements over the management of            compliance with effective DHS and FEMA policy
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 23 
 

                                                                                                                                                Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                                  New     Repeat    Risk
NFR No.                            Condition                                             Recommendation
                                                                                                                                  Issue    Issue   Rating
            NEMIS Oracle database password controls for IT               requirements for passwords and authenticator control
            Operations database administrator accounts, specifically     requirements, including expiration, reuse, length and
            by configuring a 104-day password lifetime. However, the     complexity.
            following weaknesses noted in FY 2009 continue to exist
            in FY 2010 for the four databases selected for testing:
            �   A password complexity verification function is not
                configured   to  require    a    combination    of
                upper/lowercase letters, numbers, and special
                characters.
            �   Reuse of previous passwords is not prohibited.
            �   No minimum password length is enforced.
FEMA-IT-    FEMA has made improvements over the management of            Configure the IFMIS-Merger Oracle database to                      X        3
  10-07     IFMIS-Merger Oracle database passwords by configuring        ensure compliance with effective DHS and FEMA
            the system to retain a history of the previous ten           policy requirements regarding the reuse of user
            passwords. However, upon inspection of additional            passwords.
            database password parameters, we determined that the
            password history for the ten previous passwords is only
            retained for 30 days.        Therefore, after the 30 day
            timeframe, the password history is erased, allowing the
            user to potentially use one of the previous ten passwords.
FEMA-IT-                                                                                                                           X                 3
            During the FY 2010 audit engagement, we selected four        Configure all NEMIS Oracle databases to ensure
  10-08
            NEMIS Oracle databases for testing and noted that each is    compliance with effective DHS and FEMA policy
            configured to lock accounts after three consecutive failed   requirements for account lockouts due to failed login
            login attempts and to remain locked for 415 seconds (7.5     attempts.
            minutes) before being unlocked.

FEMA-IT-    As noted during the FY 2009 audit engagement, the            �   Revise the SOP for Handling of Oracle Audit                    X        3
  10-09     following weaknesses over audit logging controls for the         Logs to ensure that procedures over requirements
            NEMIS Oracle databases continue to exist in FY 2010:             for logging and monitoring auditable activities on

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 24 
 

                                                                                                                                                  Appendix B
                                                          Department of Homeland Security
 

                                                      Federal Emergency Management Agency 

                                                      Information Technology Management Letter 

                                                                 September 30, 2010

                                                                                                                                    New     Repeat    Risk
NFR No.                             Condition                                               Recommendation
                                                                                                                                    Issue    Issue   Rating
            �   The FEMA IT Operations Branch Standard Operating                all NEMIS databases are documented in
                Procedure (SOP) for Handling of Oracle Audit Logs               accordance with DHS and FEMA guidance and
                has not been updated. Specifically:                             the process for audit log review is appropriately
                                                                                implemented for all databases within the NEMIS
                �   The scope section of the SOP does not list all              system boundary.
                    Oracle databases identified that comprise the
                    NEMIS data processing environment.                      �   Implement database configurations on all NEMIS
                                                                                databases in accordance with DHS and FEMA
                �   The SOP has not been updated to address all DHS             policy and procedures over required auditable
                    policy requirements surrounding audit trails and            events and activities.
                    activity monitoring.      Specifically, successful
                    logins, access modifications, highly privileged         �   Dedicate the appropriate resources and implement
                    user account activity, and changes to user profiles         the appropriate automated tools or establish
                    are not required to be logged and reviewed.                 manual processes to collect, review, and retain
                                                                                auditable activities on all NEMIS databases, to
                �   The SOP specifies that database administrators              ensure compliance with DHS and FEMA policy.
                    will review Oracle audit records, which is a
                    violation of segregation of duties principles that
                    require an independent review of system activity.
            �   On the four NEMIS databases selected for testing,
                configurations are not fully enabled so that a review of
                audit trails and activity defined by DHS policy
                requirements can be completed. Specifically, only
                failed login attempts are recorded in the audit trails of
                all database user accounts.
FEMA-IT­    As noted during the FY 2009 audit engagement, we                �   Develop, document, fully implement, and                       X        2
  10-10     determined that weaknesses over the tracking of FEMA                communicate formal policies and procedures,
            contractors continue to exist in FY 2010. Specifically:             according to DHS guidelines and requirements,
                                                                                for centrally tracking all contractors throughout
            �   FEMA does not have a formal process for centrally
                                                                                the on-boarding, termination, and transfer
                and adequately tracking FEMA contractors throughout
                                                                                processes. Ensure policies and procedures
                the on-boarding, termination, and transfer processes.
                                                                                include:
                As a result, FEMA could not provide a complete

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 25 
 

                                                                                                                                                    Appendix B
                                                         Department of Homeland Security
 

                                                     Federal Emergency Management Agency 

                                                     Information Technology Management Letter 

                                                                September 30, 2010

                                                                                                                                      New     Repeat    Risk
NFR No.                            Condition                                               Recommendation
                                                                                                                                      Issue    Issue   Rating
                listing of all contractors working for FEMA.
                                                                              •   The assignment of roles and responsibilities to
                                                                                  appropriate   FEMA       management        and
            �   The process established for notifying FEMA OCIO                   stakeholders.
                management, including IT system administrators, of
                                                                              �   Procedures to ensure that COTRs notify the
                changes in contractor's status, so that accounts can be
                                                                                  FEMA OCIO of changes in contractors’
                disabled/removed or account profiles can be
                                                                                  status, including separation or transfer, so that
                appropriately modified in the required timeframe, is
                                                                                  accounts can be disabled/removed or account
                not effective or comprehensive. Specifically, no
                                                                                  profiles can be appropriately modified in the
                formal requirements exist for COTRs to notify the
                                                                                  required timeframe.
                OCIO of separating contractors.
                                                                              �   Establishment of controls for periodically
                                                                                  monitoring the effectiveness of the process to
                                                                                  ensure compliance with policy.
                                                                          �   Regularly distribute a listing of terminated
                                                                              contractor personnel to information system
                                                                              administrators so they can remove user access
                                                                              timely.
FEMA-IT­    While FEMA has made improvements over the review of           �   Revise and implement policies and procedures                      X        3
  10-11     IFMIS-Merger application activity by documenting                  that document requirements for configuring,
            responsibilities for performing periodic reviews of super         retaining, and reviewing audit trails for the
            user account activities, the following weaknesses noted in        IFMIS-Merger     application   and    database,
            FY 2009 continue to exist in FY 2010:                             including defined roles and responsibilities, in
                                                                              accordance with DHS and FEMA policy.
            �   Existing policies and procedures, including FEMA
                Interim CFO Directive 2600-21, IFMIS User Access          �   Implement configurations on the IFMIS-Merger
                and Termination, and FEMA SOP 2000-002,                       application and database to ensure that audit logs
                Monitoring of IFMIS Database Audit Log, do not                record required auditable events and activities, in
                require the generation, review, or retention of audit         accordance with DHS and FEMA policy.
                logs for all activities required by FEMA and DHS
                policy.                                                   �   Implement appropriate management controls to
                                                                              ensure timely communication and implementation
            �   Failed database (Oracle) and application (UNIX) login         of existing and future DHS information security
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 26 
 

                                                                                                                                                    Appendix B
                                                          Department of Homeland Security
 

                                                      Federal Emergency Management Agency 

                                                      Information Technology Management Letter 

                                                                 September 30, 2010

                                                                                                                                      New     Repeat    Risk
NFR No.                            Condition                                                Recommendation
                                                                                                                                      Issue    Issue   Rating
                attempts and activity performed by application users           policy    requirements     pertaining   to    the
                with the “super user” role remain the only forms of            configuration of audit logs on the IFMIS-Merger
                activity logged and monitored for IFMIS-Merger.                application and database, and to periodically
                Other types of activity required by FEMA and DHS               assess system controls to determine compliance.
                policy,    including   successful   logins,   access
                modifications, and changes to user profiles, are not
                logged or monitored.
            �   While we noted that logging of users accessing or
                attempting to access the IFMIS-Merger application is
                enabled and distributed to appropriate independent
                reviewers, evidence of review of application login
                attempts is not documented.
            Additionally, we noted the following weaknesses related
            to reviews of activity of super users within the IFMIS­
            Merger application:
            �   Activity of users with elevated privileges is logged
                and reviewed on a weekly basis. However, FEMA
                policy requires that audit records be captured and
                reviewed at least every three (3) days.
            �   Review of super user activity is performed by an
                individual with super user privileges within the
                application, in conflict with segregation of duties
                principles.
FEMA-IT­    The following weaknesses noted in FY 2009 continued to         There is no recommended corrective action specific to                X        3
  10-12     exist in FY 2010:                                              this finding because of the decommissioning of G&T
                                                                           IFMIS in June 2010. Any G&T IFMIS accounts
            �   G&T IFMIS application user accounts were not               which now exist on the IFMIS – Merger instance will
                consistently approved or authorized prior to initial       need to be included in recertification efforts that will
                account creation or modification of account privileges.    be performed by FEMA as corrective action to
                Of the 25 active application users selected for testing,   remediate NFR FEMA-IT-10-14, which cites a lack of

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 27 
 

                                                                                                                                                Appendix B
                                                         Department of Homeland Security
 

                                                     Federal Emergency Management Agency 

                                                     Information Technology Management Letter 

                                                                September 30, 2010

                                                                                                                                  New     Repeat    Risk
NFR No.                            Condition                                              Recommendation
                                                                                                                                  Issue    Issue   Rating
                FEMA was unable to provide adequate documented            consistent recertification of Core/Merger IFMIS
                evidence that creation of, or modifications to, account   accounts, to ensure that all migrated G&T IFMIS
                privileges for 22 accounts were properly authorized.      accounts are appropriately authorized.
                Specifically:
                �   Documentation for 10 accounts did not evidence
                    that access was authorized by the OCFO.
                �   Documentation for 11 accounts indicated that
                    access was authorized by the OCFO after the
                    modifications to the account privileges were
                    performed.
                �   Documentation for 1 account was not available.
            �   G&T IFMIS Oracle database user accounts were not
                consistently approved or authorized prior to initial
                account creation.      Specifically, of the 8 active
                database user accounts selected for testing, FEMA
                was unable to provide documented evidence that the
                initial account creation of 2 accounts in FY 2010 was
                authorized.
            While we noted that the planned merger of the G&T
            IFMIS and Core IFMIS instances occurred in February
            2010 and the existing G&T IFMIS Oracle database and
            application server was decommissioned in June 2010, the
            weaknesses over the financial data existed for the majority
            of the fiscal year.
FEMA-IT­    As noted during the FY 2009 audit engagement,                 There is no recommended corrective action specific to             X        3
  10-13     weaknesses in G&T IFMIS Oracle database audit logging         this finding because of the decommissioning of G&T
            controls continued to exist in FY 2010. Specifically,         IFMIS in June 2010.
            Oracle database audit trails were not configured to capture
            any activity, including failed login attempts or

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 28 
 

                                                                                                                                                 Appendix B
                                                         Department of Homeland Security
 

                                                     Federal Emergency Management Agency 

                                                     Information Technology Management Letter 

                                                                September 30, 2010

                                                                                                                                   New     Repeat    Risk
NFR No.                            Condition                                              Recommendation
                                                                                                                                   Issue    Issue   Rating
            administrator-level actions as required by FEMA and DHS
            guidance.

            While we noted that the planned merger of the G&T
            IFMIS and Core IFMIS instances occurred in February
            2010 and the existing G&T IFMIS Oracle database was
            decommissioned in June 2010, the weaknesses over the
            financial data existed for the majority of the fiscal year.
FEMA-IT­    During the FY 2010 audit procedures, we noted that            �   Dedicate resources to fully implement FEMA and                 X        3
  10-14     weaknesses which existed in FY 2009 related to the                DHS requirements for a recertification of all
            recertification of IFMIS application accounts continue to         IFMIS-Merger application accounts at least
            exist. Specifically, although the Core IFMIS application          annually, including revoking access for any
            user accounts were recertified in January 2010 prior to the       accounts not currently in compliance with the
            merge of the G&T and Core IFMIS applications, we                  annual recertification.
            determined that the recertification of the Core IFMIS
            accounts was not properly completed. Of the 25 active         �   Identify and implement appropriate monitoring
            application accounts selected, FEMA was unable to                 controls to ensure continued compliance with
            provide documented evidence that three of the accounts            recertification requirements for the IFMIS-
            were recertified by the system owner to validate the              Merger application.
            continued appropriateness of the account, as required by
            FEMA and DHS policy. Furthermore, these accounts then
            remained on the IFMIS-Merger application after the
            merger of the applications occurred.
FEMA-IT­    During the FY 2010 audit engagement, we noted that the        There is no recommended corrective action specific to              X        3
  10-15     weaknesses over the recertification of G&T IFMIS              this finding because of the decommissioning of G&T
            application and Oracle database users noted in FY 2009        IFMIS in June 2010. Any G&T IFMIS accounts
            continued to exist. Specifically, a management review to      which now exist on the IFMIS – Merger instance will
            validate the appropriateness of G&T IFMIS application         be included in recertification efforts that need to be
            and Oracle database user accounts was not formally            performed by FEMA as corrective action to remediate
            implemented or performed by the OCFO/Financial System         NFR FEMA-IT-10-14, which cites a lack of
            Section (OCFO-FSS) this fiscal year.                          consistent recertification of Core/Merger IFMIS
                                                                          accounts.
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 29 
 

                                                                                                                                                      Appendix B
                                                            Department of Homeland Security
 

                                                        Federal Emergency Management Agency 

                                                        Information Technology Management Letter 

                                                                   September 30, 2010

                                                                                                                                        New     Repeat    Risk
NFR No.                              Condition                                                Recommendation
                                                                                                                                        Issue    Issue   Rating
            We noted that the planned merger of the G&T IFMIS and
            Core IFMIS instances occurred in February 2010, and the
            existing G&T IFMIS Oracle database and application
            server was decommissioned in June 2010. However, prior
            to the migration of G&T accounts to the IFMIS – Merger
            instance in February 2010, a recertification of G&T IFMIS
            application users did not occur. Therefore, the weaknesses
            over the recertification of users with access to G&T IFMIS
            financial data existed for the first two quarters of the fiscal
            year.
FEMA-IT­    The merger of Core IFMIS and G&T IFMIS was                        There is no recommended corrective action specific to               X        2
  10-16     performed in February 2010, and the G&T IFMIS                     this finding because of the decommissioning of G&T
            application and database server were formally                     IFMIS in June 2010.
            decommissioned in June 2010. While an ATO was
            granted for the IFMIS-Merger system by the FEMA CIO
            on June 4, 2010, prior to the completion of the merged
            instance, a C&A had not been performed over the G&T
            IFMIS instance. Consequently, as noted during the prior
            year FY 2009 audit engagement, G&T IFMIS operated
            without an ATO prior to its decommissioning.

            In addition, we determined that during the time the system
            was operational, neither an ISSO nor a Designated
            Authorizing Authority (DAA) had been formally
            designated by FEMA management for G&T IFMIS.
FEMA-IT­    During the FY 2010 audit engagement, we noted the                 �   Develop and implement policies and procedures          X                 2
  10-17     following weaknesses regarding specialized training for               requiring initial and periodic specialized training
            FEMA employees and contractors with significant                       for individuals with significant information
            information security responsibilities:                                security responsibilities.
            �   FEMA has not formally documented or implemented
                policies and procedures to meet the requirements over         �   Formally identify specific roles and positions
                specialized training for FEMA employees and                       possessing significant information security

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 30 
 

                                                                                                                                                   Appendix B
                                                          Department of Homeland Security
 

                                                      Federal Emergency Management Agency 

                                                      Information Technology Management Letter 

                                                                 September 30, 2010

                                                                                                                                     New     Repeat    Risk
NFR No.                            Condition                                               Recommendation
                                                                                                                                     Issue    Issue   Rating
                contractors with significant information security              responsibilities that are subject to specialized
                responsibilities in accordance with DHS policy.                training requirements.
            �   With the exception of ISSOs, FEMA has not formally
                                                                           �   Develop and implement a mechanism for tracking
                identified all individuals or positions with significant
                                                                               and monitoring compliance with specialized
                information security responsibilities subject to
                                                                               training requirements for individuals with
                specialized training requirements.
                                                                               significant information security responsibilities.
            �   FEMA does not track or monitor completion of
                specialized training for FEMA personnel with critical
                IT roles.
FEMA-IT­    In FY 2010, we noted that the NEMIS System Security            �   Fully identify all hardware and software                        X        2
  10-18     Plan (SSP) was updated in November 2009. However, we               components of the NEMIS platform and update
            determined that the following weaknesses continue to               appropriate NEMIS system documentation,
            exist:                                                             including the SSP, to reflect the current operating
                                                                               environment as required by DHS policy and
            �   NEMIS system boundaries, including identification of
                                                                               NIST guidance.
                all hardware and software elements that comprise the
                NEMIS general support system and subsystems, have          �   Establish and implement a formal process for
                not been fully defined.                                        periodically reviewing and assessing system
                                                                               documentation to ensure that system boundaries
            �   FEMA has not documented the assignment of FEMA
                                                                               and hardware and software components are
                personnel with security responsibilities for the
                                                                               accurately reflected.
                modules and major applications that are classified as
                NEMIS subsystems within the current NEMIS SSP.             �   Formally assign and document security
                                                                               responsibilities of FEMA personnel for all
                                                                               components of NEMIS, including all identified
                                                                               modules and major applications.
FEMA-IT­    During the FY 2010 audit      engagement, we noted the         �   Formally establish roles and responsibilities          X                 3
  10-19     following    weaknesses        regarding    configuration          related to oversight and implementation of
            management over network       devices such as firewalls,           configuration   management   policies    and
            routers, and switches that    support in-scope financial           procedures for network devices, including
            systems:                                                           firewalls and routers, supporting financial

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 31 
 

                                                                                                                                                 Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                                   New     Repeat    Risk
NFR No.                           Condition                                             Recommendation
                                                                                                                                   Issue    Issue   Rating
                                                                            applications in accordance with DHS and FEMA
            �   Comprehensive configuration baselines identifying all       requirements.
                relevant CIs within the scope of IFMIS and NEMIS
                                                                        �   Revise and implement configuration management
                have not been documented.
                                                                            policies and procedures over documenting and
                                                                            maintaining current baseline configurations for
            �   FEMA configuration management policies and                  network      devices     supporting     financial
                procedures     require   the     implementation    of       applications, including IFMIS and NEMIS, to
                Configuration Status Accounting (CSA), which                ensure DHS and FEMA requirements are
                includes     recording     approved     configuration       adequately addressed and configuration baselines
                documentation, performing Configuration Audits              are comprehensively documented by FEMA.
                (CAs), and documenting physical configuration audits        Additionally, policies and procedures should
                to assess conformance with established baselines.           include guidance over requirements such as
                However,      requirements    for   the   frequency,        documentation of baselines, periodic review and
                documentation, and retention of results of these            auditing, and approval of baseline changes for
                activities have not been defined in existing FEMA           network devices.
                policies or procedures. Additionally, the required
                CSA reports and CAs have not been performed for         �   Perform required configuration management
                IFMIS or NEMIS.                                             activities, including periodic CSA and CA
                                                                            activities, for network devices supporting
                                                                            financial applications, including IFMIS and
                                                                            NEMIS, and retain auditable evidence of these
                                                                            activities as required by FEMA policy.
FEMA-IT­    Conditions noted in FY 2009 related to weaknesses over      �   Update the NEMIS IT Contingency Plan in                          X        2
  10-20     the documentation and testing of the NEMIS contingency          accordance with DHS and NIST requirements for
            plan continue to exist in FY 2010, as follows:                  systems categorized at the high impact
                                                                            availability objective. Additionally, ensure that
            �   The NEMIS IT Contingency Plan does not adequately
                                                                            the Contingency Plan comprehensively addresses
                and comprehensively include information required by
                                                                            the numerous sub-systems within NEMIS so that
                DHS policy for systems with high impact availability.
                                                                            detailed information exists over the current
                For example, we noted the following weaknesses:
                                                                            system architecture, critical processing priorities,
                �   Detailed information over NEMIS system                  detailed recovery procedures and other required
                    architecture, such as the database and server           components in accordance with DHS guidance.

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 32 
 

                                                                                                                                              Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                                New     Repeat    Risk
NFR No.                           Condition                                             Recommendation
                                                                                                                                Issue    Issue   Rating
                    names, as well as information over the various      �   Conduct and document annual tests of the
                    modules of NEMIS, has not been appropriately            NEMIS Contingency Plan that address all critical
                    documented to reflect the current operating             phases of the plan, and update the Contingency
                    environment.                                            Plan with lessons learned, as necessary and in
                �   The plan does not sufficiently include details          accordance with DHS and NIST requirements.
                    necessary to fully restore NEMIS and dependent
                    subsystems in the event of an emergency.
                �   The contingency plan does not specify critical
                    roles, system resources, or system/application
                    recovery priorities in sufficient detail to
                    distinguish between the various modules within
                    NEMIS.
                �   The Business Impact Analysis (BIA) included in
                    the Contingency Plan was completed in 2004 and
                    is not adequately documented.
            �   Testing of the NEMIS IT contingency plan has not
                been performed in the past 12 months in accordance
                with DHS policy.
FEMA-IT­    We performed a comparison of active IFMIS-Merger,           �   Identify the root cause(s) associated with                    X        3
  10-21     G&T IFMIS, and NACS accounts, as well as individuals            separated employees remaining on FEMA
            with VPN remote access privileges, against a list of FEMA       information systems. As appropriate, revise
            employees that had separated from employment since              existing procedures or develop additional
            October 1, 2009 to determine if any separated employees         procedures over removal of separated user access
            retained active accounts on the applications or remote          to IT systems to address weaknesses that
            access to the FEMA network. The following weaknesses            contribute to untimely removal of separated
            were identified:                                                individuals from the systems.
            �   11 IFMIS-Merger user accounts remained active and
                unlocked after the account holder’s separation from     �   Ensure that procedures are implemented
                FEMA.                                                       consistently to remove system and application
                                                                            accounts for all separated users immediately upon
            � 3 G&T IFMIS user accounts remained active and                 notification of separation, in accordance with
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 33 
 

                                                                                                                                                Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                                  New     Repeat    Risk
NFR No.                            Condition                                             Recommendation
                                                                                                                                  Issue    Issue   Rating
                unlocked after the account holder’s separation from          FEMA, DHS and NIST guidance.
                FEMA.
                                                                         No corrective action specific to the portion of this
            �   164 NACS accounts with NEMIS positions assigned          finding related to G&T IFMIS will be provided
                at the time of our test work remained active and         because of the decommissioning of that system in
                unlocked after the account holder’s separation from      June 2010.
                FEMA.
            �   33 individuals retained the ability to access the FEMA
                network remotely due to active VPN remote access
                privileges after the account holder’s separation from
                FEMA. All 33 individuals additionally retained an
                active NACS account as described above, thus
                allowing them to potentially access NEMIS as well.
FEMA-IT­    In FY 2010, we noted that the following conditions           �   Configure the FEMA LAN to ensure compliance                    X        3
  10-22     identified in FY 2009 related to FEMA LAN accounts               with DHS and FEMA policy requirements for
            continue to exist:                                               passwords      and      authenticator      control
                                                                             requirements, including expiration, reuse, length,
            �   The FEMA LAN domain security policy does not
                                                                             and complexity.
                enforce password requirements in accordance with
                DHS policy. Specifically:
                                                                         �   Identify and implement appropriate monitoring
                �   The FEMA LAN does not enforce a password                 controls to ensure that all accounts on the FEMA
                    history or prevent reuse of passwords.                   LAN are in compliance with DHS requirements
                                                                             for authorization. Additionally, ensure that where
                �   The FEMA LAN does not enforce complexity                 appropriate policies and procedures are further
                    requirements, including password length or the           developed and/or revised to ensure consistent
                    use of mixed-case alphanumeric and special               implementation and include requirements for all
                    characters, to ensure that strong passwords are          accounts on the FEMA LAN, including generic,
                    used.                                                    shared group, service, and LAN end-user
            �   FEMA was unable to provide evidence of account               accounts not included in the NACS.
                authorization for 10 Active Directory (AD) individual
                user accounts created in FY 2010.                        �   Develop and implement a formal process for
                                                                             performing a periodic recertification of all FEMA
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 34 
 

                                                                                                                                                Appendix B
                                                         Department of Homeland Security
 

                                                     Federal Emergency Management Agency 

                                                     Information Technology Management Letter 

                                                                September 30, 2010

                                                                                                                                  New     Repeat    Risk
NFR No.                            Condition                                              Recommendation
                                                                                                                                  Issue    Issue   Rating
            �   While policies and procedures over the authorization          LAN accounts which defines requirements and
                of generic, shared group, and service accounts on the         addresses accounts not included during the
                FEMA LAN have been finalized, approval of these               planned recertification of NEMIS application
                accounts is not consistently documented according to          access.
                policy. Specifically, of a selection of 45 generic,
                group, and service LAN accounts created during FY         �   Evaluate and, if appropriate, revise existing
                2010:                                                         procedures over removal of separated user access
                                                                              to the FEMA LAN to ensure the timely removal
                �   2 did not have a clearly defined business need or         of separated individuals from the network.
                    justification documented;
                �   26 did not have IT Security or system owner           �   Ensure that procedures are implemented
                    approval documented;                                      consistently to remove FEMA LAN accounts for
                                                                              all separated users immediately upon notification
                �   19 were created prior to supervisory certification;       of separation, in accordance with FEMA, DHS
                    and                                                       and NIST guidance.
                �   2 did not have any authorizing documentation
                    provided for our review.
            �   FEMA has not established procedures and
                implemented a process over the periodic
                recertification of FEMA LAN accounts to ensure that
                access is still necessary and appropriate for each
                account as required by FEMA and DHS policy.
            �   We compared a listing of active FEMA LAN/AD
                accounts against a list of FEMA employee separations
                that had occurred since October 1, 2009 and
                determined that 85 accounts remained active and
                unlocked after the account holder’s separation from
                FEMA.
FEMA-IT­    In FY 2010, we determined that while change                   We recommend that FEMA OCIO and NFIP                              X        2
  10-23     management procedures have been developed and                 management finalize and implement comprehensive

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 35 
 

                                                                                                                                            Appendix B
                                                       Department of Homeland Security
 

                                                   Federal Emergency Management Agency 

                                                   Information Technology Management Letter 

                                                              September 30, 2010

                                                                                                                              New     Repeat    Risk
NFR No.                           Condition                                            Recommendation
                                                                                                                              Issue    Issue   Rating
            implemented for applications hosted by the NFIP LAN,       patch management policies and procedures for the
            including Traverse, the documented procedures do not       NFIP LAN supporting Traverse, in accordance with
            specifically address patch management policies and         DHS policy.       Additionally, FEMA and NFIP
            procedures for the NFIP LAN in accordance with DHS         management should ensure that these procedures
            requirements. Specifically, controls over the approval,    include requirements for authorizing, testing, and
            testing, and deployment of operating system patches are    approving patches to be implemented into production
            not addressed.                                             and responding to DHS Security Operations Center
                                                                       and DHS Enterprise Operations Center (EOC)
                                                                       notifications to ensure compliance with the timely
                                                                       implementation of required patches.
FEMA-IT­    During FY 2010, we noted that weaknesses over the C&A      We recommend that NFIP continue to work with the                 X        2
  10-24     of NFIP continue to exist. Specifically,                   FEMA OCIO to complete the recertification and
                                                                       accreditation of the NFIP Legacy Services System,
            �   FEMA approved Conditional ATOs for the                 including documentation of all required artifacts in
                NFIP/Legacy System Services (LSS) on May 22, 2009      accordance with applicable DHS policies and Federal
                and August 20, 2010 for two one-year periods.          guidance.
                However, we noted that in the absence of a full ATO,
                DHS policy allows “interim” ATOs only for systems
                that are either under development testing or in the
                prototype phase of development, not operational
                systems such as the NFIP/LSS.          Additionally,
                “interim” ATOs cannot exceed two consecutive six-
                month periods.
            �   During the initial Conditional ATO period that began
                on May 22, 2009, FEMA did not complete C&A
                efforts, including the risk assessment and Security
                Testing and Evaluation (ST&E) needed to fully assess
                risk associated with the system, so that a full ATO
                could be issued. Consequently, from May 2010, when
                the initial Conditional ATO expired, through August
                2010 when the second Conditional ATO was
                approved, the system operated without any

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 36 
 

                                                                                                                                                Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                                  New     Repeat    Risk
NFR No.                           Condition                                             Recommendation
                                                                                                                                  Issue    Issue   Rating
                authorization.
            �   During our audit fieldwork period, NFIP was unable
                to provide us with evidence that C&A activities
                required to be performed for a full ATO to be granted
                had been completed.
FEMA-IT­    During the FY 2010 audit engagement, we noted that the      �   Revise and implement current policies and                       X        3
  10-25     following conditions related to management of FEMA              procedures for documenting, reviewing, and
            VPN accounts continue to exist:                                 approving all remote access accounts to the
                                                                            FEMA LAN including VPN and iPass access.
            �   The VPN Rules of Behavior for Users Behind
                                                                            Specifically, roles and responsibilities should be
                Corporate Firewalls, dated December 5, 2002,
                                                                            defined to ensure that sufficient resources are
                requires individual’s manager approval and Enterprise
                                                                            dedicated to appropriately authorize accounts on
                Service Desk (ESD) validation of all VPN Access
                                                                            behalf of the system owner or a designee prior to
                Request forms prior to granting access. However,
                                                                            granting remote access, according to FEMA and
                approval by the system owner or a designated
                                                                            DHS policy.
                representative is not required.
            �   VPN Access Request forms include an approval block      �   Develop and implement policies and procedures
                titled “For FEMA OCS Use Only,” and the form states         to perform a periodic recertification of all remote
                that all VPN requests must be approved by the FEMA          user access and retain auditable records as
                Office of Cyber Security (OCS). However, OCS does           evidence that recertifications are conducted and
                not currently exist as a FEMA Division due to               completed in accordance with DHS and FEMA
                FEMA’s reorganization. Consequently, existing               policy.
                policies and procedures do not reflect the current
                security management structure at FEMA nor do they
                assign responsibility to a current entity within the
                agency.
            �   A periodic recertification of FEMA VPN access
                accounts is not currently performed to ensure that
                remote access is still necessary and appropriate for
                each individual.

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 37 
 

                                                                                                                     Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                        New     Repeat    Risk
NFR No.                           Condition                                     Recommendation
                                                                                                        Issue    Issue   Rating
           �   Of the selection of 45 VPN Access Request forms
               reviewed:
               �   Two did not specify the date that access was
                   approved by the requestor’s supervisor.
               �   Three were granted supervisory approval after
                   VPN access was established for the user.
               �   The section of each form that required “OCS”
                   level review and approval was not completed.
           Additionally, we conducted further testwork over remote
           access granted through the iPass utility, which is used to
           provide dial-up access to the FEMA network via the VPN
           gateway. This access is managed through a separate
           access authorization process from VPN. During our
           testwork, we noted the following new conditions in FY
           2010 related to management of access to iPass:
           �   While iPass User Agreement forms require Section
               Chief (or equivalent) approval and IT certification for
               iPass remote access, requests are not approved by the
               system owner or a designated representative, as
               required by DHS policy. Additionally, policies and
               procedures do not exist related to the granting and
               management of users of the iPass remote dial-up
               utility.
           �   Of the selection of 45 iPass User Agreement forms
               reviewed:
               �   Three did not specify the date that access was
                   approved by the requestor’s section chief (or
                   equivalent).

          Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                             Page 38 
 

                                                                                                                                             Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                               New     Repeat    Risk
NFR No.                           Condition                                            Recommendation
                                                                                                                               Issue    Issue   Rating
                �   One was granted supervisory approval after VPN
                    access was established for the user.
                �   One was granted supervisory approval by the
                    same individual that the requested VPN account
                    was for, indicating a violation of segregation of
                    duties in the management review and approval of
                    information system access.
FEMA-IT­    The following weaknesses noted in FY 2009 continue to       �   Identify and implement appropriate monitoring                X        3
  10-26     exist in FY 2010:                                               controls to ensure compliance with initial
                                                                            authorization and modification requirements for
            �   IFMIS-Merger application user accounts were not
                                                                            accounts on the IFMIS-Merger application.
                properly approved or authorized. Specifically, of the
                25 active application users selected for review, FEMA
                was unable to provide documented evidence that          �   Document policies and procedures over the
                initial account creation or the most recent                 periodic recertification of all accounts on the
                modifications to account privileges for 6 accounts          IFMIS-Merger database.
                were authorized.
                                                                        �   Dedicate resources to fully implement FEMA and
            �   Policies and procedures over the management of              DHS requirements for a recertification of all
                accounts on the IFMIS-Merger Oracle database do not         IFMIS-Merger database accounts at least
                specify requirements for performing a periodic              annually, including revoking access for any
                recertification of database accounts to validate the        accounts not currently in compliance with the
                continued appropriateness of access.                        annual recertification.
            �   IFMIS-Merger Oracle database user accounts were not
                properly approved or authorized. Specifically, of the   �   Identify and implement appropriate monitoring
                eight active database users selected for review,            controls to ensure compliance with initial
                approval for six user accounts was not documented           authorization, modification, and periodic
                prior to creation of the accounts. Approval was not         recertification requirements for accounts on the
                documented for these accounts until after the audit         IFMIS-Merger database.
                request for documentation was received.
            �   The FY 2010 recertification of IFMIS-Merger Oracle

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 39 
 

                                                                                                                                                  Appendix B
                                                          Department of Homeland Security
 

                                                      Federal Emergency Management Agency 

                                                      Information Technology Management Letter 

                                                                 September 30, 2010

                                                                                                                                    New     Repeat    Risk
NFR No.                             Condition                                               Recommendation
                                                                                                                                    Issue    Issue   Rating
                database user accounts was neither completed
                consistently nor in accordance with FEMA policy.
                Specifically, we requested a selection of recertification
                forms for eight IFMIS-Merger database user accounts
                and determined that three were granted to contractors,
                but COTR approval was not documented.
FEMA-IT­    As noted during the FY 2009 audit engagement, the               There is no recommended corrective action specific to             X        3
  10-27     following weaknesses in G&T IFMIS Oracle database user          this finding because of the decommissioning of G&T
            account password controls continued to exist in FY 2010:        IFMIS in June 2010.
            �   We determined that FEMA performed manual reviews
                of inactive G&T IFMIS database accounts on a
                monthly basis to disable accounts which had not been
                used in the prior 90 days. However, since G&T
                IFMIS is categorized as a high impact system, reviews
                are required to disable accounts that have been
                inactive for 45 days, according to DHS policy.
            �   The G&T IFMIS database account security policy did
                not enforce password requirements in accordance with
                DHS policy. Specifically:
                �   The database did not enforce a password history
                    or prevent reuse of passwords.
                �   The database did not enforce complexity
                    requirements, including definition of a password
                    verification function to ensure strong passwords
                    are used. Specifically, password length and
                    requirements over the use of mixed-case,
                    alphanumeric and special characters to enforce
                    restrictions over the use of dictionary words, are
                    not defined.

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 40 
 

                                                                                                                                          Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                            New     Repeat    Risk
NFR No.                           Condition                                            Recommendation
                                                                                                                            Issue    Issue   Rating
                �   The database did not enforce password expiration
                    after a predetermined length of time.
            �   FEMA had not established a formal process for
                approving emergency and temporary access to the
                G&T IFMIS database that is compliant with DHS
                requirements. Specifically, emergency and temporary
                access to the database for individuals with elevated
                privileges,   including     access     for contractor
                development personnel, is approved by the FSS Chief
                and/or his/her staff, not by the FEMA Chief
                Information Security Officer (CISO) or a designee, as
                required by DHS policy. Additionally, a formal
                process specifically addressing procedures for the
                granting of temporary access to the database and
                ensuring that access is removed in a timely manner
                was not documented within existing IFMIS access
                control policies and procedures. Furthermore, we
                determined that through this process the G&T IFMIS
                Oracle database access was granted to contracted
                development personnel in order to implement database
                changes to G&T IFMIS, which continues to conflict
                with segregation of duties principles.
            While we noted that the merger of the G&T IFMIS and
            Core IFMIS instances occurred in February 2010 and the
            existing     G&T      IFMIS       Oracle     database was
            decommissioned in June 2010, the weaknesses noted
            existed for the majority of the fiscal year.
FEMA-IT­    Weaknesses noted in FY 2009 over C&A of the FEMA            �   Continue to fully identify and decouple all               X        3
  10-28     LAN and subsystems that host in-scope financial                 components of the FSN-2 platform, including
            applications continue to exist in FY 2010. During our FY        regional LANs and GSSs, which host or support
            2010 audit engagement, we noted that FEMA has                   IFMIS and NEMIS, and perform all required

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 41 
 

                                                                                                                                            Appendix B
                                                       Department of Homeland Security
 

                                                   Federal Emergency Management Agency 

                                                   Information Technology Management Letter 

                                                              September 30, 2010

                                                                                                                               New     Repeat    Risk
NFR No.                           Condition                                            Recommendation
                                                                                                                               Issue    Issue   Rating
           classified regional LANs as subsystems and included them         C&A activities over each component as required
           within the defined system boundary of the FEMA                   by DHS policy and NIST guidance.
           Switched Network (FSN)-2. We noted the following
           weaknesses in the C&A of the FSN-2 General Support           �   Formally assign and document security
           System (GSS) that includes the FEMA LANs:                        responsibilities for all components of the FSN-2
                                                                            platform, including regional LANs and GSSs,
           �   The FSN-2 GSS C&A was not completed in
                                                                            which host or support IFMIS and NEMIS.
               compliance with DHS and NIST requirements and has
               not been updated to accurately reflect the current GSS
               environment. Specifically:
               �   The authorizing officials and individuals noted as
                   responsible for the security roles for multiple
                   regional LANs and subsystems are not accurately
                   reflected in the SSP included in the C&A package
                   as employees with specified roles no longer work
                   for FEMA in the capacity noted.
               �   While the Maryland National Processing Service
                   Center is identified as a subsystem in the
                   overarching FSN-2 GSS C&A package SSP,
                   C&A activities have not been performed over this
                   subsystem.
               �   DHS policy requires annual testing of IT
                   contingency plans for information systems with a
                   high impact availability categorization, such as
                   the FSN-2 GSS. However, the most recent test of
                   the FSN-2 IT contingency plan was performed
                   and documented during FY 2008.
               �   DHS policy requires that risk assessments be
                   conducted for information systems no less
                   frequently than every three years. However, the
                   most recent ST&E was documented during FY
          Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                             Page 42 
 

                                                                                                                                        Appendix B
                                                       Department of Homeland Security
 

                                                   Federal Emergency Management Agency 

                                                   Information Technology Management Letter 

                                                              September 30, 2010

                                                                                                                          New     Repeat    Risk
NFR No.                           Condition                                           Recommendation
                                                                                                                          Issue    Issue   Rating
                    2006.
            �   The most recent ATO granted by the FEMA CIO
                expired on January 22, 2010, and the FSN-2 GSS is
                currently operating without authorization from FEMA
                management.
            �   Although the C&A package references various
                subsystems supporting and hosting IFMIS and
                NEMIS, FEMA management was unable to identify
                and confirm the FSN-2 subsystems (including regional
                LANs) that host the production servers for NEMIS
                and IFMIS applications. Consequently, we were
                unable to test the hosting environment supporting
                financial applications in-scope for the FY 2010
                environment.
FEMA-IT­    During the FY 2009 audit engagement, we noted that a       �   Formally designate an ISSO for the PARS web              X        3
  10-29     C&A of PARS had not been performed and the system had          server and application environment.
            not received an ATO since becoming operational in the
            FEMA environment. While improvements were noted in         �   Certify and accredit the PARS web server and
            this condition for FY 2010, we determined that the             application       environment,     including
            following C&A weaknesses over PARS continue to exist:          documentation of all required artifacts in
                                                                           accordance with applicable DHS policies and
            �   In FY 2010, the PARS database was included within          Federal guidance.
                the accreditation boundary for the IFMIS-Merger
                system, which was granted an ATO in June 2010.
                However, prior to that date, the PARS database was
                not certified and accredited and consequently,
                operated without an ATO for the majority of FY
                2010.

            �   All other system components of PARS, including the
                web and application servers, continued to operate

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 43 
 

                                                                                                                                                 Appendix B
                                                          Department of Homeland Security
 

                                                      Federal Emergency Management Agency 

                                                      Information Technology Management Letter 

                                                                 September 30, 2010

                                                                                                                                   New     Repeat    Risk
NFR No.                            Condition                                               Recommendation
                                                                                                                                   Issue    Issue   Rating
                without an ATO, and evidence that C&A efforts for
                these components of PARS were completed and
                approved by FEMA management could not be
                obtained from FEMA for review during the FY 2010
                audit engagement.

            �   At the time of our test procedures, an ISSO had not
                been formally designated by FEMA management for
                the PARS web server and application. While we were
                informed by FEMA IT Security Management that the
                PARS database was administered by an ISSO under
                the Core IFMIS, we determined that no formal
                designation of this responsibility was assigned until
                FY 2010 because the PARS database was not
                included in the C&A boundary for Core IFMIS and no
                additional designation letters were issued. As a result,
                the PARS database did not have a formal designation
                of security responsibilities for the majority of the
                fiscal year.
FEMA-IT­    As noted during the FY 2009 audit engagement related to        Document and implement a formal process for                       X        3
  10-30     Core IFMIS, we determined that weaknesses over the             granting emergency and temporary access to the
            authorization of emergency and temporary access to the         IFMIS-Merger database that includes guidance over
            IFMIS – Merger Oracle database continue to exist in FY         all types of accounts authorized for temporary and
            2010. Specifically, FEMA has not established a formal          emergency      access,   segregation     of    duties
            process for approving emergency and temporary access to        considerations, and appropriate approval from FEMA
            the IFMIS-Merger database that is compliant with DHS           management in accordance with DHS policy.
            requirements. During our FY 2010 testing, we determined
            that emergency and temporary access to the database for
            individuals with elevated privileges, including access for
            contractor development personnel, is approved by the FSS
            Chief and/or his/her staff, not by the FEMA CISO or a
            designee, as required by DHS policy. Additionally, a
            formal process specifically addressing procedures for the
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 44 
 

                                                                                                                                                 Appendix B
                                                          Department of Homeland Security
 

                                                      Federal Emergency Management Agency 
 

                                                      Information Technology Management Letter 
 

                                                                 September 30, 2010

                                                                                                                                   New     Repeat    Risk
NFR No.                             Condition                                              Recommendation
                                                                                                                                   Issue    Issue   Rating
            granting of temporary access to the database and ensuring
            that access is removed in a timely manner has not been
            documented within existing IFMIS-Merger access control
            policies and procedures.

            Furthermore, we determined that through this process the
            IFMIS-Merger Oracle database access is granted to
            contracted development personnel in order to implement
            database changes to IFMIS-Merger, which continues to
            conflict with segregation of duties principles.
FEMA-IT­    During our unannounced enhanced security testing               Formally approve and implement procedures for                     X        3
  10-31     performed during the FY 2010 audit engagement, we              managing security incidents. Specifically, procedures
            noted that the FEMA Security Operations Center (SOC)           should clearly outline roles and responsibilities
            proactively tracked and reported incidents related to social   required to maintain a continuous incident response
            engineering attempts performed at FEMA headquarters            capability and define processes related to the
            and regional offices through implemented ad hoc                identification, evaluation, and resolution of all
            processes. However, weaknesses noted during the FY             security incidents, as required by DHS and FEMA
            2009 audit engagement related to FEMA’s incident               policy.
            response program continue to exist in FY 2010.

            Specifically, standard operating procedures for the
            management of FEMA IT security incidents have not been
            formally approved and implemented by FEMA
            management. Consequently, FEMA has not implemented
            DHS policy requirements to establish a documented and
            formally approved component-level incident response
            framework or capability, including roles, responsibilities,
            and processes related to the identification, evaluation, and
            resolution of all security incidents.
FEMA-IT­    In FY 2009, we identified weaknesses over FEMA’s patch         Further dedicate resources to document and fully                  X        3
  10-32     management program as it relates to Core IFMIS and             implement comprehensive system-specific patch
            G&T IFMIS. During the FY 2010 audit engagement, we             management procedures to ensure that IFMIS-Merger
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 45 
 

                                                                                                                                                Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                                  New     Repeat    Risk
NFR No.                            Condition                                             Recommendation
                                                                                                                                  Issue    Issue   Rating
            determined that while FEMA has finalized and formally        operating system and database patches are tested and
            implemented the FEMA Office of the Chief Information         deployed in a timely manner, in accordance with DHS
            Officer (OCIO) Standard Operating Procedure (SOP) for        and FEMA policy.
            Vulnerability Patch Management, the SOP was not
            approved until April 8, 2010. Consequently, FEMA did         No corrective action specific to the portion of this
            not have a formal patch management procedure applicable      finding related to G&T IFMIS will be provided
            to the IFMIS environments for a majority of the fiscal       because of the decommissioning of that system in
            year. Given the timing of the SOP’s approval, the patch      June 2010.
            management procedures could not be implemented when
            G&T IFMIS was operational as it was merged with Core
            IFMIS in February 2010.

            Additionally, we determined that FEMA has not fully and
            consistently implemented the requirements and procedures
            documented in the SOP for IFMIS-Merger in accordance
            with FEMA and DHS guidance.
FEMA-IT­    Weaknesses noted in FY 2009 over FEMA’s information          �   Establish and implement documented procedures                  X        2
  10-33     security vulnerability management program as it relates to       that define formal requirements, processes, and
            NEMIS continue to exist in FY 2010. Specifically:                responsibilities    for   performing      periodic
                                                                             vulnerability scans of NEMIS production servers.
            �   FEMA does not have documented and approved
                                                                             Additionally, ensure these procedures include
                procedures that establish formal requirements,
                                                                             requirements for reporting and tracking resolution
                processes, and responsibilities for performing regular
                                                                             of weaknesses identified during internal NEMIS
                vulnerability scans of NEMIS.
                                                                             vulnerability scans in accordance with DHS
            �   The list of NEMIS servers currently scanned by the           POA&M guidance.
                SOC is incomplete and does not represent the current
                                                                         �   Revise listing of NEMIS servers scanned by the
                NEMIS system boundary as defined by system owners
                                                                             FEMA SOC to ensure that vulnerability scans
                and IT security management. Additionally, NEMIS
                                                                             performed include all NEMIS servers within the
                system owners are not receiving listings of all
                                                                             current operating environment. Additionally,
                vulnerabilities noted on their system components to
                                                                             develop and implement procedures to ensure that
                ensure corrective action is tracked and remediated.
                                                                             this listing is periodically re-evaluated and
            � Corrective action over vulnerabilities identified
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                                Page 46 
 

                                                                                                                                                 Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                                   New     Repeat    Risk
NFR No.                            Condition                                             Recommendation
                                                                                                                                   Issue    Issue   Rating
                through SOC internal scans of NEMIS production               updated as appropriate.
                servers is not formally tracked via the POA&M
                process, as required by DHS policy.                      �   Revise the SOC distribution listing of NEMIS
                                                                             system owners and other appropriate IT security
                                                                             management to further define personnel
                                                                             responsible for remediating and formally tracking
                                                                             all vulnerabilities identified over the various
                                                                             NEMIS components. Additionally, develop and
                                                                             implement procedures to ensure that this listing is
                                                                             periodically re-evaluated and updated as
                                                                             appropriate.
FEMA-IT­    Weaknesses noted in FY 2009 over FEMA’s information          Establish and implement documented procedures that                  X        3
  10-34     security vulnerability management program as it relates to   define formal requirements, processes, and
            G&T IFMIS and IFMIS-Merger continue to exist in FY           responsibilities for performing regular vulnerability
            2010. Specifically:                                          scans of IFMIS-Merger. Additionally, procedures
                                                                         should include requirements for reporting and
            �   FEMA did not have documented and approved                tracking resolution of weaknesses identified during
                procedures that establish formal requirements,           internal IFMIS-Merger vulnerability scans in
                processes, and responsibilities for performing regular   accordance with DHS POA&M guidance.
                vulnerability scans of G&T IFMIS and IFMIS-
                Merger.
            �   For one of the three months selected for testing,        No corrective action specific to the portion of this
                vulnerability scans were not performed for the G&T       finding related to G&T IFMIS will be provided
                IFMIS production server.                                 because of the decommissioning of that system in
                                                                         June 2010.
            �   For all three months selected for testing,
                vulnerabilities reported by the FEMA SOC over the
                G&T IFMIS and IFMIS-Merger production servers
                were not formally tracked via the POA&M process, as
                required by DHS policy.
FEMA-IT­    In FY 2009, we identified weaknesses over FEMA’s patch       Further document and fully implement comprehensive                  X        2
  10-35     management program related to NEMIS. During the FY           system-specific patch management procedures to

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 47 
 

                                                                                                                                                  Appendix B
                                                          Department of Homeland Security
 

                                                      Federal Emergency Management Agency 

                                                      Information Technology Management Letter 

                                                                 September 30, 2010

                                                                                                                                    New     Repeat    Risk
NFR No.                            Condition                                               Recommendation
                                                                                                                                    Issue    Issue   Rating
            2010 audit engagement, we determined that while FEMA           ensure that NEMIS operating system and database
            has finalized and formally implemented the FEMA OCIO           patches are tested and deployed in a timely manner, in
            SOP for Vulnerability Patch Management, the SOP was            accordance with DHS and FEMA policy.
            not approved until April 8, 2010. Consequently, FEMA           Additionally, these policies and procedures should
            did not have a formal patch management procedure               include formal designation of responsibilities for
            applicable to the NEMIS environment for a majority of the      oversight and implementation of required patch
            fiscal year. Additionally, we determined that FEMA has         management activities for all NEMIS components to
            not fully and consistently implemented the requirements        ensure compliance at the system level.
            and procedures documented in the SOP for all NEMIS
            components in accordance with FEMA and DHS
            guidance.
FEMA-IT­    Weaknesses identified in FY 2009 related to the testing of     �   Develop and implement backup policies and                      X        3
  10-36     NEMIS production database backup tapes continue to                 procedures to ensure that all NEMIS components
            exist in FY 2010. Specifically:                                    are backed up and backup media is stored
                                                                               in/rotated to an off-site facility according to
            �   During two quarters of FY 2010, FEMA conducted
                                                                               FEMA and DHS requirements.
                restoration tests of backup tapes for one specific
                NEMIS database while FEMA’s SOP for Tape
                Backup Testing documents requirements for the              �   Revise or develop policies and procedures to
                testing of 39 databases. Consequently, we determined           periodically test and document testing of the
                that FEMA did not regularly test backup tapes                  NEMIS backups in compliance with FEMA and
                containing all NEMIS production database data during           DHS requirements. In addition, ensure that
                the fiscal year.                                               policies and procedures are implemented to
                                                                               perform periodic restoration testing of all NEMIS
            �   Additionally, while we noted that the SOP for Tape             production databases in accordance with
                Backup Testing assigns responsibility for testing              established requirements.
                backup tapes in accordance with a defined schedule to
                NEMIS IT security management, administrators, and
                system owners, the SOP was not updated to reflect the
                required schedule for performing tape restoration tests.
            Furthermore, we noted the following new weaknesses
            related to controls over the performance of NEMIS

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 48 
 

                                                                                                                                                   Appendix B
                                                         Department of Homeland Security
 

                                                     Federal Emergency Management Agency 

                                                     Information Technology Management Letter 

                                                                September 30, 2010

                                                                                                                                     New     Repeat    Risk
NFR No.                            Condition                                               Recommendation
                                                                                                                                     Issue    Issue   Rating
            database backups:
            �   FEMA has not formally defined and documented
                procedures that outline processes for performing
                backups of NEMIS production databases and for
                rotating and physically securing backup tapes off-site.
            �   FEMA was unable to provide requested
                documentation to evidence that any of the 39 NEMIS
                production databases identified in the SOP for Tape
                Backup Testing are currently being backed up.
FEMA-IT­    During our social engineering testing, several personnel      Review the effectiveness of existing security               X                 3
  10-37     provided us with user IDs and/or passwords.                   awareness programs designed to protect “need-to­
                                                                          know” information, including IT system access
            It should be noted that several personnel that we contacted   credentials, and ensure that individuals are adequately
            by phone during our social engineering phone calls            instructed and reminded of their roles in the protection
            challenged our requests for user access credentials by        of sensitive system information from unauthorized
            looking up our assumed names in the FEMA directory to         individuals through formal, periodic communications
            determine if we were FEMA personnel, requesting               and/or security awareness training.
            employee IDs, asking for help desk ticket numbers
            associated with our calls, and reporting our attempts to
            supervisors.

            While individuals contacted represented several offices in
            multiple FEMA regions as well as Headquarters, our
            selection of individuals was not statistically derived.
            Therefore, we are unable to project these results to FEMA
            as a whole.
FEMA-IT­    During our after-hours physical security testing conducted    Review the effectiveness of existing security                        X        2
  10-38     on July 20, 2010, we noted instances of improperly            awareness programs designed to protect electronic
            protected authentication credentials, system information,     and physical data, PII, and For Official Use Only
            information technology assets, and Personally Identifiable    (FOUO) agency information and ensure that
                                                                          individuals are adequately instructed and reminded of
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 49 
 

                                                                                                                                                 Appendix B
                                                            Department of Homeland Security
 

                                                        Federal Emergency Management Agency 

                                                        Information Technology Management Letter 

                                                                   September 30, 2010

                                                                                                                                   New     Repeat    Risk
NFR No.                              Condition                                            Recommendation
                                                                                                                                   Issue    Issue   Rating
            Information (PII) in the facilities inspected.                their roles in the protection of both electronic and
                                                                          physical FEMA data and hardware through formal,
            Some of the instances of improperly secured PII noted
                                                                          periodic communications and/or security awareness
            consisted of large stacks of documents or compiled
                                                                          training.
            spreadsheets that contained PII for numerous individuals
            conducting business for or with FEMA. Exceptions
            categorized as “Other’ consisted of laptops and other IT
            assets not physically secured/locked to workspaces,
            unsecured bank account and government travel card
            information, and the lack of adequate locking mechanisms
            on a server room door.
            Our selection of areas at each facility that were inspected
            was not statistically derived, and therefore, we are unable
            to project results to FEMA as a whole.
FEMA-IT­    As noted during the FY 2009 audit engagement,                 Document and implement policies and procedures to                  X        3
  10-39     weaknesses continue to exist over the segregation of duties   limit IFMIS-Merger developer access to the
            controls for the migration of IFMIS-Merger changes into       production environment to “read only” and segregate
            production. Specifically:                                     the responsibility for deploying application code
                                                                          changes into production from the development
            �   The FEMA development contractor continues to              contractor to an independent control group. If
                deploy changes into the UNIX production                   business needs require that the segregation of duties
                environment through the use of the shared “ifmiscm”       cannot be immediately implemented, document and
                account. We noted that FEMA change management             implement policies and procedures to mitigate the risk
                personnel are following SOPs that outline the controls    associated with the segregation of duties weakness
                intended to mitigate the risk associated with the         noted in accordance with DHS guidance, including a
                IFMIS-Merger developers having the ability to             formalized process for performing and documenting
                migrate changes to the IFMIS-Merger production            reviews of activity performed by developers within
                environment. In particular, the Office of the Chief       the IFMIS-Merger environment.
                Financial Officer (OCFO) IFMIS System Change
                Request (SCR) SOP requires the locking and
                unlocking of the “ifmiscm” account by system
                administrators during the implementation of software
                changes into production. However, we determined
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 50 
 

                                                                                                                                                 Appendix B
                                                          Department of Homeland Security
 

                                                      Federal Emergency Management Agency 

                                                      Information Technology Management Letter 

                                                                 September 30, 2010

                                                                                                                                   New     Repeat    Risk
NFR No.                            Condition                                               Recommendation
                                                                                                                                   Issue    Issue   Rating
                that while the SCR SOP states that system
                administrators will periodically monitor production
                directories to detect updates, no formal procedures or
                processes are included in the SOP or documented
                elsewhere for detailing how to monitor the directories
                or the requirements for performing the reviews to
                verify that only authorized changes to the “ifmiscm”
                directory and sub-directories are implemented into
                production by the developers.
            �   We determined that although informal reviews of the
                directories were performed during the fiscal year, they
                were not routinely relied upon by FEMA management
                as they did not provide the level of detail required for
                adequate monitoring, and FEMA personnel were not
                able to distinguish the types of changes made to the
                system from the “ifmiscm” account.
FEMA-IT­    As noted during the FY 2009 audit engagement,                  There is no recommended corrective action specific to             X        3
  10-40     weaknesses continued to exist over the segregation of          this finding because of the decommissioning of G&T
            duties controls for the migration of G&T IFMIS changes         IFMIS in June 2010.
            into production during FY 2010.

            Specifically, the “ifmiscm” account was used by the
            FEMA development contractor to deploy changes into the
            UNIX production environment. Per our review, we noted
            that the G&T IFMIS application programmers responsible
            for maintaining and developing changes for the G&T
            IFMIS application were also responsible for migrating
            application code changes into the production environment
            using the “ifmiscm” account. We were informed by
            FEMA personnel that the controls over this account did
            not change from FY 2009 and that the account remained
            unlocked while G&T IFMIS was operational between
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 51 
 

                                                                                                                                                 Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                                   New     Repeat    Risk
NFR No.                            Condition                                              Recommendation
                                                                                                                                   Issue    Issue   Rating
            October 2009 and June 2010 when the system was
            decommissioned. We were further informed by FEMA
            personnel that access to the “ifmiscm” account was not
            limited or monitored on a periodic basis, allowing the
            development contractor unrestricted access to the
            production environment.

            Additionally, we noted that FEMA has documented
            policies and procedures that require the IFMIS-Merger
            “ifmiscm” account to be locked and use of the account to
            be monitored. However, we noted that no established
            procedures or controls were in place for G&T IFMIS to
            mitigate the risk associated with this account.

            Consequently, we determined that while the G&T IFMIS
            application server was decommissioned in June 2010, the
            weaknesses over segregation of duties controls in the
            G&T IFMIS configuration management process continued
            to exist for the majority of FY 2010, and prior year NFR
            FEMA-IT-09-59 is reissued.
FEMA-IT­    Password, patch management, and configuration                Implement the specific corrective actions listed in the             X        3
  10-41     management weaknesses were identified during                 NFR for each technical control weakness identified.
            vulnerability assessment technical testing.
            Note: Due to the nature of this finding, see the tables in
            associated NFR for the specific details of the conditions.
FEMA-IT­    During the FY 2010 audit engagement, we noted the            �   Update and complete all required C&A artifacts         X                 3
  10-42     following weaknesses over the completeness and accuracy          for IFMIS-Merger in accordance with DHS
            of certain C&A artifacts that support the Authorizing            policy and NIST guidance.
            Official’s decision to grant an ATO for the IFMIS –
            Merger:                                                      �   Ensure that C&A artifacts, including the risk
                                                                             assessment or the results of the required risk
            �   A risk assessment for IFMIS-Merger had not been              assessment activities, the ST&E, and the Security
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 52 
 

                                                                                                                                           Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                             New     Repeat    Risk
NFR No.                           Condition                                            Recommendation
                                                                                                                             Issue    Issue   Rating
                completed or documented prior to granting an ATO, in       Assessment Report (SAR) are conducted and
                accordance with DHS and NIST requirements.                 documented in accordance with established DHS
                Additionally, FEMA does not plan to conduct and            baseline controls according to the security
                document a risk assessment or the results of the           categorization of the system.
                required risk assessment activities for IFMIS-Merger
                as FEMA management has indicated that it is not
                required for FY 2010.
            �   The ATO was signed in June 2010, more than three
                months after the IFMIS-Merger system was
                operational in late February 2010.
            �   Per our review of the security assessment report, the
                assessment performed over IFMIS-Merger prior to
                granting ATO did not include evaluation of any of the
                controls identified within the SSP. The assessment
                was limited to vulnerability and compliance scans.
            �   The ST&E was not properly conducted because the
                baseline controls in the Requirements Traceability
                Matrix were not consistent with DHS requirements.
FEMA-IT­    During the FY 2010 audit engagement, we noted that the      Update and complete all required C&A artifacts for    X                 3
  10-43     most recent ATO for NEMIS was signed on October 29,         NEMIS in accordance with DHS policy and NIST
            2009.     However, we identified weaknesses in the          guidance.
            completeness and accuracy of certain C&A artifacts that
            support the Authorizing Official’s decision to grant the
            ATO for NEMIS. Specifically, the NEMIS Risk
            Assessment, ST&E, and SAR were completed in 2006,
            and thus outdated as DHS policy requires C&A artifacts
            supporting ATOs to be updated within the 13 months prior
            to granting the most recent ATO, and NIST requires each
            to be conducted every 3 years.
FEMA-IT-    Conditions noted in FY 2009 related to weaknesses over      Document and implement appropriate technical and               X        3
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 

                                                              Page 53 

                                                                                                                                                   Appendix B
                                                          Department of Homeland Security
 

                                                      Federal Emergency Management Agency 

                                                      Information Technology Management Letter 

                                                                 September 30, 2010

                                                                                                                                     New     Repeat    Risk
NFR No.                            Condition                                                Recommendation
                                                                                                                                     Issue    Issue   Rating
 10-44      controls in place to monitor and restrict access to highly-    management controls to restrict and monitor access to
            privileged system accounts within the UNIX environment         privileged system administrator accounts on the
            that supports IFMIS-Merger and G&T IFMIS continue to           IFMIS-Merger operating system, including use of the
            exist in FY 2010. Specifically:                                “root” account, in accordance with DHS and FEMA
                                                                           policy. Additionally, policies and procedures should
            �   Access to the “root” account is not properly restricted    include requirements to ensure that system logs and
                and system administrator activities are not                records of administrator activity, including the “root”
                appropriately logged. Specifically, the password to        account, are retained and reviewed by IT security
                access the UNIX “root” administrator account is            management independent of the system administration
                shared between the administrators, and remote access       team, especially where individual traceability for the
                to the root account is not locked down.                    account is not possible.
            �   System administrator actions are not monitored and
                attributable to individual administrators. Specifically,   There is no recommended corrective action specific to
                FEMA has not enforced the use of the “sudo”                the portion of this finding related to G&T IFMIS
                command, which requires system administrators to           because of the decommissioning of G&T IFMIS in
                login with their individual user ID and then switch        June 2010.
                over to the root account to ensure who is accessing the
                account is logged and authorized.
            �   System logs and reports of administrator activity,
                including the “sudo” log which monitors actions
                performed by administrators while acting as the “root”
                account, were not reviewed by FEMA management
                personnel independent of the system administration
                staff.
FEMA-IT­    In FY 2009, we noted weaknesses over suitability               �   Further define and refine documented processes                  X        2
  10-45     determinations for federal employees and contractors with          to ensure that background investigations for all
            sensitive IT system access that continued to exist in FY           Federal employees are performed and procedures
            2010. Specifically, of 15 federal employee positions               are implemented in accordance with DHS
            selected for testing:                                              directives.
            �   Three did not have evidence of a completed                 �   Reevaluate and assign the correct position
                background investigation on file that met minimum              sensitivity levels to all Federal employees with
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 54 
 

                                                                                                                                                 Appendix B
                                                         Department of Homeland Security
 

                                                     Federal Emergency Management Agency 

                                                     Information Technology Management Letter 

                                                                September 30, 2010

                                                                                                                                    New     Repeat    Risk
NFR No.                           Condition                                               Recommendation
                                                                                                                                    Issue    Issue   Rating
               investigative requirements specified by DHS policy.            access to DHS information systems in
                                                                              accordance with DHS policy. Additionally
           �   For one employee, FEMA was unable to provide any               document and/or revise, and fully implement
               documentation to evidence that the employee’s                  procedures to ensure that program managers are
               background investigation was performed and                     aware of requirements and appropriate position
               maintained      within     the    Integrated    Security       sensitivity levels are designated for all sensitive
               Management System (ISMS), FEMA’s personnel                     IT positions in the future.
               suitability and investigation recordkeeping utility.
                                                                          �   Document and fully implement procedures
           �   Nine that are defined as “high risk” according to              within FEMA Acquisitions, FEMA Personnel
               FEMA policy did not have an appropriate position               Security, and FEMA IT to ensure a more
               sensitivity designation that reflected the risk level          centralized and coordinated process for tracking
               required by DHS policy.                                        and completing background investigations over
           During our FY 2010 test work over contractors, we                  contractor personnel in accordance with DHS
           determined that no formal procedures have been                     policy.
           developed or implemented by FEMA to address DHS
                                                                          �   Ensure that all system owners document and
           requirements surrounding the suitability screening of
                                                                              correctly define the appropriate sensitivity
           contractors accessing DHS IT systems. Additionally, we
                                                                              designations for contractor personnel needing
           selected a population of 15 contractors with access to
                                                                              access to their information systems in accordance
           multiple FEMA information systems who hold sensitive
                                                                              with DHS policy. Additionally, ensure that
           IT security positions at FEMA such as system
                                                                              position sensitivity designations are assigned
           administrators, database administrators, and systems
                                                                              based on the type of privileges needed, and
           development contractors and determined that FEMA has
                                                                              require contractors to have their suitability
           not appropriately conducted suitability investigations.
                                                                              investigations completed prior to being granted
           Specifically:
                                                                              access to the system in accordance with FEMA
               �   For two, FEMA was unable to provide any                    and DHS policy.
                   documentation to evidence that the contractor’s
                   record was maintained within ISMS, including
                   the status of any background investigations
                   performed.
               �   Six did not have evidence of a completed
                   background investigation on file that meets
          Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                             Page 55 
 

                                                                                                                                                   Appendix B
                                                             Department of Homeland Security
 

                                                         Federal Emergency Management Agency 

                                                         Information Technology Management Letter 

                                                                    September 30, 2010

                                                                                                                                     New     Repeat      Risk
    NFR No.                            Condition                                              Recommendation
                                                                                                                                     Issue    Issue     Rating
                        minimum investigative requirements specified by
                        DHS policy. Of the six, two had records
                        maintained within ISMS; however, FEMA was
                        unable to provide evidence that background
                        investigations for each were performed.
                    �   None had position sensitivity designations
                        defined by FEMA for the sensitive IT position
                        they held at the time of our test work, as required
                        by DHS policy.
    FEMA-IT­    During the FY 2010 audit engagement, we noted                 �   Document and implement a formalized process                  X           3
      10-46     weaknesses in controls over the configuration management          and procedures for deploying NEMIS changes to
                of application, web, and database servers within the              ensure the movement of production code for the
                NEMIS production environment. Specifically:                       NEMIS production environment is appropriately
                                                                                  controlled.       Procedures should include
                �   Access to the multiple application, web, and database         requirements for restricting and, monitoring
                    servers that comprise the NEMIS production                    access and documenting reviews to the NEMIS
                    environment for deploying approved code changes is            production environment to ensure that the
                    limited to IT Enterprise Operations staff. However,           principles of least privilege and segregation of
                    no formalized change management procedures exist              duties are enforced, in accordance with DHS
                    for deploying changes to ensure the movement of               guidance.
                    production code for the NEMIS production
                    environment is appropriately controlled.                  �   Ensure that adequate technical controls are
                                                                                  implemented to enforce least privilege and
                                                                                  segregation of duties requirements for the
                �   Access to a shared service account is used for the
                                                                                  implementation of system changes. If individual
                    deployment of Linux 5 changes. However, FEMA was
                                                                                  accounts are not possible for deploying changes,
                    unable to provide any system documentation or
                                                                                  implement logical access controls, including
                    associated artifacts demonstrating that FEMA was
                                                                                  configuration of system audit logs, on NEMIS
                    appropriately restricting and controlling access to the
                                                                                  production servers to establish individual

5
 Linux is one of the operating system platforms that the NEMIS application resides on and houses the production source code directories for a portion of the NEMIS
modules.
               Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                                  Page 56 
 

                                                                                                                                                   Appendix B
                                                          Department of Homeland Security
 

                                                      Federal Emergency Management Agency 

                                                      Information Technology Management Letter 

                                                                 September 30, 2010

                                                                                                                                     New     Repeat    Risk
NFR No.                             Condition                                              Recommendation
                                                                                                                                     Issue    Issue   Rating
                NEMIS production application, web, and database                accountability for all FEMA personnel with
                servers.                                                       access to the environment through the shared
                                                                               service account, in accordance with DHS and
                                                                               FEMA policy. Additionally, for these shared
                                                                               service accounts, document, implement, and
                                                                               approve standard operating procedures for the
                                                                               implementation and formal review of NEMIS
                                                                               system changes on production servers.
FEMA-IT­                                                                   �   Define and implement formal and repeatable                      X        2
  10-47     In FY 2009, we noted that FEMA’s OCFO and NFIP
            financial systems development and acquisition projects             entity level control processes to ensure that
            were undertaken and progressed without (1) proper                  financial systems development and acquisition
            oversight of and direction to contractors, (2) development         projects are conducted in compliance with DHS
            and approval of required project documentation, (3) the            SELC and acquisition requirements as well as
            continual involvement of the OCIO to ensure appropriate            Federal guidance. The processes should define
            consideration and integration of IT security, and (4) the          steps to include, but are not limited to, formal
            joint communication and decision-making of FEMA                    approval of required project documentation,
            OCFO, OCIO and NFIP management. As a result, we                    sufficient contractor oversight, definitions of
            recommended that FEMA management define and                        project roles and responsibilities so that decision
            implement formal and repeatable processes to ensure that           making includes the appropriate involvement of
            financial systems development and acquisition projects are         all stakeholders and relevant FEMA management,
            conducted in compliance with DHS SELC and acquisition              establishment of Acquisition Decision Events
            requirements as well as Federal guidance.                          (ADEs) at each SELC phase, and integration of
                                                                               IT security considerations throughout all project
                                                                               phases.
            During the FY 2010 audit engagement, we determined that        �   Identify and formally assign stakeholders
            FEMA management has not implemented corrective                     associated with the remediation efforts over
            actions or developed a corrective action plan to address the       aligning the DHS SELC methodology with
            prior year weaknesses noted. Specifically, entity-level            FEMA’s acquisition development process to
            corrective actions to integrate and develop sufficient and         ensure appropriate participation from all required
            effective methods of communication to ensure that                  organizations within FEMA in both the
            significant financial-related system development and               development of policies and procedures and
            acquisition projects involve all relevant stakeholders,            integration of the financial systems acquisitions
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 57 
 

                                                                                                                                                Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                                   New     Repeat    Risk
NFR No.                           Condition                                              Recommendation
                                                                                                                                   Issue    Issue   Rating
            including the OCFO, have not been established.                  life cycle stages as required by DHS policy.
            Additionally, FEMA management has not taken action to
            enhance and further develop current acquisition
            management processes to ensure that organization-specific
            requirements exist and are implemented so that each
            project meets organizational mission needs and functional
            and technical requirements as required by DHS and NIST
            guidance.
FEMA-IT­    FEMA IT security management responsibilities were not       �   Establish and document a formalized process to          X                 3
  10-48     consistently or adequately assigned and performed over          provide IT security management oversight to
            the FEMA POA&M process for FY 2009 IT audit                     ensure that adequate periodic review and
            findings, in accordance with DHS guidance. Specifically:        assessment of security controls are performed and
                                                                            corrective actions are appropriately assigned and
            �   POA&Ms created by FEMA management in response
                                                                            implemented over identified security weaknesses
                to FY 2009 IT financial statement audit findings were
                                                                            through the POA&M process.
                not consistently categorized with the appropriate
                criticality level in accordance with DHS policy.        �   Dedicate resources to fully implement DHS
                Specifically, for 52 POA&Ms provided by FEMA on             requirements over the POA&Ms for audit
                May 3, 2010, criticality was either undefined or            findings of FEMA financial systems, including
                erroneously defined as “Annual Assessment Finding”          the proper categorization of audit findings,
                rather than “Initial Audit Finding” or “Repeat Audit        documentation of all stakeholders with
                Finding,” as required.                                      remediation responsibilities, and monitoring of
                                                                            POA&M activities to validate that corrective
            �   FEMA management did not consistently document
                                                                            actions are appropriately documented with
                detailed corrective action plans or appropriate
                                                                            associated milestones and evidence of
                milestones, including required tests of design and
                                                                            remediation is developed and retained.
                effective implementation for financial system
                POA&Ms.                                                 �   Develop and implement a training program for
                                                                            personnel with IT security responsibilities, such
            �   FEMA management did not consistently assign
                                                                            as system owners and ISSOs, to ensure that they
                POA&M stakeholder ownership for corrective action
                                                                            fully understand their roles and responsibilities to
                plans or related milestones.
                                                                            correctly categorize the findings, formally define
                                                                            milestones, and validate the documentation and

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 58 
 

                                                                                                                                                  Appendix B
                                                         Department of Homeland Security
 

                                                     Federal Emergency Management Agency 

                                                     Information Technology Management Letter 

                                                                September 30, 2010

                                                                                                                                    New     Repeat    Risk
NFR No.                            Condition                                              Recommendation
                                                                                                                                    Issue    Issue   Rating
                                                                              testing of the corrective action implemented.
                                                                          �   Develop and implement review procedures to
                                                                              ensure developed POA&Ms are detailed enough
                                                                              to demonstrate that the root cause of the issue has
                                                                              been assessed and the milestones address the
                                                                              necessary steps to fully remediate the weaknesses
                                                                              as required by DHS policy.
FEMA-IT­    During the FY 2010 follow-up testwork, we determined          �   Dedicate resources to assess the usage of IFMIS-                X        2
  10-49     that weaknesses noted in FY 2009 continue to exist.               Merger system security functions against DHS
            Specifically, we determined that no additional policies and       policy requirements and determine gaps that exist
            procedures to establish a process for implementing change         within existing system documentation over the
            controls for the maintenance of system security functions         security functions.
            have been developed by FEMA or the IT developer of
            IFMIS-Merger. FEMA has not adequately ensured that            �   Develop and implement policies and procedures
            appropriate privileges granted to users are created,              documenting the process of adding, deleting, and
            documented, and approved.                                         modifying IFMIS-Merger system security
                                                                              functions to ensure that proper controls are in
            We were informed by FEMA personnel that the system                place for approving, testing and documenting
            security functions are created and modified to provide            these functions prior to implementation, in
            additional functionality under specific menus in the              accordance with DHS policy. These policies and
            IFMIS-Merger application. As a result, these changes to           procedures should include requirements over
            the menu provide additional functionality to the users with       independent monitoring of the creation,
            access to those menus. However, current documentation             modification and deletion of system security
            over IFMIS-Merger, including access authorization forms,          functions, and requirements for updating system
            change management plans and SSPs, do not define how to            documentation to reflect the impact of the
            manage and document changes to these functions to ensure          changes to user account privileges.
            that approved changes are made and appropriate and
                                                                          �   Develop and implement procedures to ensure that
            traceable access is granted to IFMIS-Merger users.
                                                                              functions   updated   through    the   change
                                                                              management process are formally approved and
            While FEMA has received the IFMIS Security Functions
                                                                              documented and that appropriate system
            Reference Guide dated 2007 from the software vendor, we
                                                                              documentation for IFMIS-Merger system security
            determined that the documentation is a technical reference
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 59 
 

                                                                                                                                                Appendix B
                                                          Department of Homeland Security
 

                                                      Federal Emergency Management Agency 

                                                      Information Technology Management Letter 

                                                                 September 30, 2010

                                                                                                                                  New     Repeat    Risk
NFR No.                             Condition                                              Recommendation
                                                                                                                                  Issue    Issue   Rating
            manual that defines the capabilities of the system, usage of       functions is updated and retained, in accordance
            the various system security functions, menu options and            with DHS policy.
            related permissions for each function. However, the guide
            does not address the management of these system security
            functions from a change control and access control
            perspective for FEMA. Additionally, the guide does not
            include requirements for updating system documentation
            and tracking these system security function changes to
            privileges in the system.

            Consequently, based on our testwork, we concluded that a
            formalized process for modifying specific IFMIS-Merger
            system security functions to ensure that appropriate
            privileges are created, documented, approved, and
            monitored does not exist.
FEMA-IT­    During the FY 2010 audit engagement, we determined that        �   Implement and require two-factor authentication              X        3
  10-50     the following conditions related authorization of external         for all remote access to the FEMA network, as
            connections to the FEMA VPN continue to exist:                     required by DHS policy and Federal Information
                                                                               Processing Standards (FIPS) 140-2.
            �   Two-factor authentication is not used for VPN access,
                as required by DHS policy.                                 �   Revise and implement policies and procedures for
                                                                               documenting, reviewing, and approving the
            �   The existing documentation that defines the process
                                                                               security controls in place over non-DHS
                for granting and maintaining VPN access to the
                                                                               equipment connecting to the FEMA network via
                FEMA network does not include requirements for
                                                                               VPN access. Specifically, clearly define and
                administering the site survey process, including
                                                                               document a formalized process for the
                requirements for the authorization of the sites surveys,
                                                                               authorization, review, and maintenance of VPN
                recertification of site surveys, and the security
                                                                               access agreements between FEMA and external
                requirements associated with the various aspects of the
                                                                               entities. Additionally, ensure that within the
                process.
                                                                               policies and procedures, appropriate roles and
            �   FEMA has not formally identified and documented the            responsibilities over the process are defined to
                roles and responsibilities necessary within FEMA to            include authorizations by the CISO/Information
                properly authorize and administer VPN access to                System Security Manager (ISSM) to connect to

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 60 
 

                                                                                                                                              Appendix B
                                                       Department of Homeland Security
 

                                                   Federal Emergency Management Agency 

                                                   Information Technology Management Letter 

                                                              September 30, 2010

                                                                                                                                 New     Repeat    Risk
NFR No.                           Condition                                             Recommendation
                                                                                                                                 Issue    Issue   Rating
               individuals using non-DHS equipment to access the            non-DHS equipment.
               FEMA network.
                                                                        �   Ensure that agreements related to VPN access are
           �   Access for state emergency management agencies and           reviewed and recertified when a major system
               FEMA contractors to load the VPN client onto state or        change occurs or every three years, in accordance
               contractor owned equipment to connect to the FEMA            with DHS policy.
               LAN is approved by the SOC. However, DHS policy
               requires that any non-DHS equipment connecting to a      �   Formally identify and document appropriate roles
               DHS network must be authorized by the Component              and responsibilities related to management of
               CISO/ISSM.                                                   remote access to the FEMA network, including
                                                                            iPass and VPN.
           �   FEMA’s VPN Rules of Behavior for Users Behind
               Corporate Firewalls, dated December 5, 2002,             �   Document and implement policies and
               requires an Inter-Agency VPN Agreement between               procedures to ensure that formalized ISAs,
               FEMA and external organizations before permitting            MOUs, or MOAs, delineating security
               VPN access to the FEMA network through non-                  responsibilities by FEMA and external
               Government issued equipment such as contractor or            organizations when connecting through non-DHS
               state agency workstations. However, we determined            equipment to the FEMA network via VPN access
               that Inter-Agency VPN Agreements have not been               are used. Such agreements should include
               documented and that this requirement is inconsistent         evidence of validation by FEMA management
               with DHS policy, which requires Interconnection              that security controls in place on external entity
               Security Agreements (ISAs) or Memoranda of                   networks are appropriate and satisfy requirements
               Understanding/Memoranda         of       Agreement           for minimum security controls on DHS and
               (MOUs/MOAs) prior to establishing a VPN                      FEMA systems prior to connection in accordance
               connection from equipment operating on an external           with DHS policy.
               network.
           �   FEMA’s approval of requests for network connections
               to external organizations through VPN access for
               remote users is based on security control information
               submitted by the external entities via site surveys.
               Based upon our review of existing site surveys and the
               site survey process, we noted that:
               � The site surveys do not contain the level of
          Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 61 
 

                                                                                                                                               Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                                 New     Repeat    Risk
NFR No.                           Condition                                              Recommendation
                                                                                                                                 Issue    Issue   Rating
                    technical granularity describing the external
                    network     security   controls   required   to
                    appropriately approve a connection to the FEMA
                    LAN, and the FEMA SOC does not independently
                    verify the accuracy of information in the site
                    surveys submitted by external entities prior to
                    approving the connection and subsequently
                    granting VPN access to users.
                �   DHS guidance indicates that a single ISA may be
                    used for multiple connections provided that the
                    security accreditation is the same for all
                    connections covered by that ISA. However, we
                    determined that the security accreditation of the
                    connecting networks is not being evaluated by the
                    FEMA SOC during the review of site surveys to
                    ensure the security requirements are appropriately
                    implemented.
            In FY 2009, we identified weaknesses over configuration      �   Document and implement formalized policies and                X        3
            management controls related to NEMIS program libraries           procedures for restricting and monitoring access
            and directories within the Test and Development                  to the NEMIS TDL directories to ensure that the
            Laboratory (TDL) environment. During the FY 2010                 principles of least privilege and segregation of
            audit, we determined that the following weaknesses               duties are enforced, in accordance with DHS
            continue to exist:                                               guidance.       The process should include
FEMA-IT­                                                                     requirements over periodic monitoring and
            �   Controls to segregate access within the TDL
  10-51                                                                      documented reviews of NEMIS TDL directories
                environment    have    not    been    appropriately
                                                                             to verify that no changes have occurred after the
                implemented. Specifically, IT Systems Integration
                                                                             approval of NEMIS system changes.
                personnel do not grant separate privileges to
                development code, which is moved to TDL by the           �   Implement technical controls within the NEMIS
                systems developer, and pre-production code, which            TDL environment to limit developers’ access to
                has completed User Acceptance Testing (UAT) and is           pre-production directories containing “locked”
                pending deployment to the NEMIS production                   application code changes to “read only”. If

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 62 
 

                                                                                                                                                Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                                  New     Repeat    Risk
NFR No.                            Condition                                             Recommendation
                                                                                                                                  Issue    Issue   Rating
                environment. As a result, developers have read, write        business needs require that the segregation of
                and execute privileges to all code in the TDL                duties cannot be immediately implemented,
                environment.                                                 FEMA should document and implement policies
                                                                             and procedures to compensate for the risk
            �   Code approved for implementation is not locked down          associated with the segregation of duties
                within the TDL environment prior to deployment to            weakness noted, in accordance with DHS
                production. Additionally, while an ad-hoc review is          guidance.
                performed over the directories to monitor the
                modification dates on the production code directories,
                this process is not performed consistently or
                documented to mitigate the risk associated with not
                restricting access to the approved code.
            Conditions noted in FY 2009 related to weaknesses over       �   Document and implement formal policies and                     X        2
            vulnerability assessments for the Windows server                 procedures that outline the processes and
            environment within the NFIP LAN supporting the                   requirements for performing internal vulnerability
            Traverse application continue to exist in FY 2010.               scans over all NFIP information systems as well
            Specifically:                                                    as the process for assessing, reporting, and
                                                                             correcting weaknesses identified during scans as
            �   While procedures have been developed, the NFIP
                contractor has not fully implemented the process for         required by FEMA and DHS policy.
                conducting internal vulnerability scans for              �   Ensure that policies and procedures formally
                information systems and for assessing, reporting, and        designate responsibilities of FEMA OCIO and
FEMA-IT­        correcting identified weaknesses through the POA&M           NFIP IT security management for the
  10-52         Process in accordance with FEMA and DHS                      implementation, monitoring, and oversight of the
                guidance.                                                    vulnerability scanning process, so that the scope
            �   FEMA does not have documented and approved                   of vulnerability scans conducted include all NFIP
                procedures that establish formal requirements,               workstations     and     servers   and    include
                processes, and responsibilities for conducting               requirements for formally tracking and
                monitoring and oversight of regular vulnerability            monitoring the remediation of vulnerabilities
                scans performed over the NFIP LAN which supports             identified during the internal scans of the NFIP
                Traverse to meet DHS vulnerability assessment                LAN through the POA&M process, in accordance
                requirements.                                                with DHS policy.


           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 63 
 

                                                                                                                                                 Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                                   New     Repeat    Risk
NFR No.                            Condition                                              Recommendation
                                                                                                                                   Issue    Issue   Rating
            �   Furthermore, while ad hoc scans were performed in
                previous years by the contractor, evidence of periodic
                NFIP network scanning conducted in FY 2010 could
                not be obtained. Additionally, we inquired with
                FEMA and determined that scans over the NFIP LAN
                supporting the Traverse application were not
                performed by the FEMA SOC.
            During our FY 2010 audit test work, we noted that NFIP       �   Complete the revision, documentation, and full                  X        2
            has not established or implemented an effective process to       implementation of TRRP access control policies
            periodically recertify user access, including service            and procedures, and ensure that they include a
            accounts, on the TRRP mainframe. Currently, NFIP                 formalized process for the recertification of all
            requires users to sign security awareness and training           accounts on the mainframe, including service
            certifications on an annual basis. However, no review of         accounts, on an annual basis to determine that
            users’ access and privileges is conducted by management          access remains appropriate and commensurate
            on a periodic basis to ensure system access remains              with job responsibilities in accordance with DHS
FEMA-IT­    appropriate and commensurate with job responsibilities in        policy.
  10-53     accordance with DHS guidance.
                                                                         �   Document and implement policies and procedures
            Additionally, we noted through inspection of the TRRP            over the creation of service accounts to ensure
            access procedures that no process has been established to        that they are appropriately authorized and that a
            formally document both the approval and business need            clear business need is established and
            for service accounts.                                            documented justifying the creation and use of
                                                                             these types of accounts in accordance with DHS
                                                                             policy.
            During the FY 2010 audit engagement, we determined that      Conduct and document a lessons learned report              X                 3
            weaknesses existed in the implementation of DHS SELC         related to the IFMIS-Merger project per DHS SELC
            requirements over the IFMIS-Merger Project. Specifically,    guidance. By conducting such an activity, FEMA
FEMA-IT­    throughout the lifecycle of the project, FEMA                management will be able to maintain a record of
  10-54     management did not adequately define and implement           lessons learned in order to increase the probability of
            required elements of the DHS SELC process, including:        success for future acquisitions through the
                                                                         improvement of processes, tools, and other project
            �   A detailed and comprehensive Project Tailoring Plan      related entities.
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 64 
 

                                                                                                                                                Appendix B
                                                         Department of Homeland Security
 

                                                     Federal Emergency Management Agency 

                                                     Information Technology Management Letter 

                                                                September 30, 2010

                                                                                                                                   New     Repeat    Risk
NFR No.                            Condition                                               Recommendation
                                                                                                                                   Issue    Issue   Rating
               to define required stages, activities, artifacts and exit
               criteria for the project per DHS SELC guidance was          Additionally, we determined that the root cause
               not developed and approved by FEMA management.              associated with the weaknesses noted over the SELC
                                                                           process is related to the entity level control issue
           �   Approvals for project critical documentation                identified in FEMA-IT-10-47, FEMA Management
               demonstrating that all required stakeholders reviewed       Needs to Improve Planning, Management, and
               and approved the results before advancing to                Communication Related to Financial Systems
               subsequent SELC stages could not be provided.               Development and Acquisition Projects. While the
           �   FEMA could not provide a Data Migration Plan and            IFMIS-Merger project has been completed, corrective
               Test Strategy to demonstrate that critical DHS SELC         action over the establishment of a process to provide
               requirements were documented and approved prior to          oversight to the implementation of the SELC
               implementation of the data migration.                       methodology must be completed. Please see NFR
                                                                           FEMA-IT-10-47 for recommendations related to the
           �   System security requirements and milestones were not        establishment of this process.
               documented and integrated into key project
               documentation, such as Business Requirements
               documents, project schedules, Project Management
               Plans, and Risk Management Plans.
           �   Project documentation including the Project
               Management Plan, the Risk Management Plan, and
               Business Requirements documents were not updated
               and revised throughout the project duration as required
               by the DHS SELC.
           �   Key information such as roles and responsibilities of
               all stakeholders, guidelines for developing business
               requirements documentation, requirements for stage
               reviews, and key exit criteria before moving to the
               next stage of the project were not integrated into the
               project schedule, Project Plan, and Communications
               Plan.
           �   FEMA management did not provide adequate

          Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                             Page 65 
 

                                                                                                                                               Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                                  New     Repeat    Risk
NFR No.                           Condition                                             Recommendation
                                                                                                                                  Issue    Issue   Rating
                oversight of the contractors implementing the IFMIS-
                Merger Project. Specifically, documented evidence
                supporting the approval, validation, and retention of
                required artifacts associated with the data migration
                and other key project management documents could
                not be provided by FEMA or were insufficient based
                on DHS requirements.

            During our FY 2010 audit test work, we noted the            �   Complete the revision, documentation, and full         X                 2
            following weaknesses related to the management and              implementation of access control policies and the
            monitoring of user accounts and activity on the NFIP LAN        NFIP LAN system account management
            supporting Traverse:                                            procedures to align with DHS requirements such
                                                                            as recertification of accounts and audit log
            �   NFIP has not established or implemented a formal
                                                                            reviews. Specifically, ensure that they include a
                process to periodically recertify all accounts with
                                                                            formalized process for the recertification of all
                access to the NFIP LAN supporting Traverse, as
                                                                            accounts on the NFIP LAN, including service
                required by DHS and FEMA policy. Specifically, six
                                                                            accounts, on an annual basis to determine if
                system and/or service accounts on the FEMA LAN
                                                                            access remains appropriate and commensurate
                remained active absent an acceptable documented
                                                                            with job responsibilities in accordance with DHS
                business need and justification. We were informed by
FEMA-IT­                                                                    policy.
                NFIP management that these accounts were no longer
  10-55         needed, and they were removed from the system           �   Document and implement policies and procedures
                during test work.                                           over the creation of service accounts to ensure
                                                                            that they are appropriately authorized and that a
            �   Audit logs generated and reviewed on the NFIP LAN
                                                                            clear business need is established and
                do not include changes to user account privileges as
                                                                            documented justifying the creation and use of
                required by DHS and FEMA policy.
                                                                            these types of accounts in accordance with DHS
            �   Audit logs for the NFIP LAN are not retained for at         policy.
                least 90 days, in accordance with DHS policy.
                                                                        �   Configure the NFIP LAN audit logs to include
                                                                            changes to user account privileges and ensure that
                                                                            storage capacity settings of audit logs are
                                                                            configured to retain the logs for 90 days online as

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 66 
 

                                                                                                                                                 Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                                   New     Repeat    Risk
NFR No.                           Condition                                              Recommendation
                                                                                                                                   Issue    Issue   Rating
                                                                            required by DHS and FEMA policy.
            During our FY 2010 audit engagement, we noted the           �   Develop and implement TRRP audit logging                X                 2
            following weaknesses related to the monitoring of user          policies and procedures that include requirements
            accounts and activity on the TRRP mainframe:                    for audit log configurations and the review of logs
                                                                            by IT security management independent of the
            �   Segregation of duties is not properly implemented
                                                                            system administration team in accordance with
                over the review and maintenance of TRRP audit logs.
FEMA-IT­                                                                    DHS policy.
                Specifically, the TRRP system administrator is
  10-56         responsible for reviewing TRRP audit logs, and a        �   Configure the TRRP audit logs to include changes
                second independent reviewer is not required.                to user account privileges as required by DHS and
                                                                            FEMA policy.
            �   Audit logs generated and reviewed on the TRRP
                mainframe do not include changes to user account
                privileges as required by DHS and FEMA policy.
            During our FY 2010 audit test work, we noted that NFIP      �   Develop, document, and fully implement policies         X                 2
            has not established or implemented a formal process to          and procedures over documenting, reviewing, and
            authorize or periodically review remote access to the LAN       approving remote access to the NFIP LAN
            hosting the TRRP mainframe environment in accordance            hosting the TRRP mainframe environment in
            with DHS and NIST guidance.                                     accordance with FEMA and DHS requirements.
FEMA-IT­
  10-57                                                                 �   Develop, document, and fully implement policies
                                                                            and procedures to perform a periodic
                                                                            recertification of all remote user access and retain
                                                                            auditable records as evidence that recertifications
                                                                            are conducted and completed in accordance with
                                                                            DHS and FEMA policy.
            While improvements were noted over the documentation        �   Ensure the NFIP contractor continues to dedicate                 X        2
            of Traverse change management procedures during the FY          resources to establish and implement documented
FEMA-IT­    2010 audit test work, we determined that certain                policies and procedures over the Traverse change
  10-58     weaknesses identified in FY 2009 continue to exist over         management process for non-emergency and
            the Traverse configuration management process in                emergency changes which are in line with DHS
            comprehensively addressing FEMA and DHS change                  configuration      management       requirements.

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 67 
 

                                                                                                                                                Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                                   New     Repeat    Risk
NFR No.                           Condition                                              Recommendation
                                                                                                                                   Issue    Issue   Rating
           management policy. For example, we determined that:               Particular emphasis must be placed on approval
                                                                             by the NFIP CCB and/or TRC, initial change
           �   Established procedures do not include guidance for            approvals, testing and testing requirements, final
               initial approvals as we were informed that Traverse           approvals, and retention of required change
               currently does not fall under review of the NFIP              management artifacts to track all changes
               Change Control Board (CCB).                                   throughout their lifecycle. These phases should
           �   Requirements for managing the change management               also include an integrated process to address
               program have not been adequately established and              system change requirements and stakeholder
               implemented to ensure that NFIP CCB and/or                    change requirements to ensure adequate testing
               Technical Review Committee (TRC) approvals are                and approvals are completed by the appropriate
               granted prior to implementing changes into the                parties.
               Traverse production environment, as required by           �   Establish and implement a formal process to
               FEMA and DHS policy.                                          conduct user acceptance testing in a test
           �   Adequate oversight and involvement from FEMA                  environment prior to implementation in
               management is not integrated into the configuration           production.
               management requirements. Specifically, FEMA is not        �   Allocate qualified NFIP management and OCIO
               involved in testing and/or reviewing testing and              IT security resources to provide adequate
               approving    changes     to    Traverse     prior    to       oversight for the configuration management
               implementation.                                               process. Oversight activities should encompass
           �   Traverse changes are not required to be tested prior to       requirements such as a NFIP Program
               implementing the change into production as no testing         Configuration Management Board responsible for
               environment exists.                                           managing and participating in the NFIP CCB
                                                                             and/or TRC to ensure that all required elements in
           �   Limited testing requirements exist to guide personnel
                                                                             the configuration management process are
               in the development of test plans and guidance over the
                                                                             formally defined and implemented in accordance
               testing that should be performed and documented.
                                                                             with DHS and FEMA guidance.
               Additionally, roles and responsibilities over test plan
               procedures to ensure that plans are sufficient,           �   Dedicate the resources to fully review and finalize
               document expected outcomes, and are reviewed and              approval of all NFIP contractor’s configuration
               approved prior to development, are not documented.            management policies and procedures to ensure
                                                                             the revised procedures are compliant with DHS
           �   Requirements for Traverse emergency changes have
                                                                             requirements.
               not been formally defined.
          Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                             Page 68 
 

                                                                                                                                                 Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                                   New     Repeat    Risk
NFR No.                            Condition                                             Recommendation
                                                                                                                                   Issue    Issue   Rating
            While improvements were noted over the documentation         �   Ensure the NFIP contractor continues to dedicate                X        2
            of TRRP change management procedures during the FY               resources to establish and implement documented
            2010 audit test work, we determined that certain                 policies and procedures over the TRRP change
            weaknesses identified in FY 2009 continue to exist over          management process for non-emergency and
            the TRRP configuration management process in                     emergency changes which are in line with DHS
            comprehensively addressing FEMA and DHS change                   configuration      management        requirements.
            management policy. For example, we determined that:              Particular emphasis must be placed on initial
                                                                             change     approvals,     testing   and     testing
            �   Requirements for managing the change management
                                                                             requirements, final approvals, and retention of
                program have not been adequately established and
                                                                             required change management artifacts to track all
                implemented to ensure that CCB and/or TRC
                                                                             changes throughout their lifecycle. These phases
                approvals are granted prior to implementing changes
                                                                             should also include an integrated process to
                into the TRRP production environment, as required by
                                                                             address system change requirements and
                FEMA and DHS policy. Specifically:
                                                                             stakeholder change requirements to ensure
                �   While a CCB has been established by NFIP                 adequate testing and approvals are completed by
                    management, adequate oversight and involvement           the appropriate parties.
FEMA-IT­
  10-59             from FEMA management has not been integrated
                                                                         �   Allocate qualified NFIP management and OCIO
                    into the configuration management requirements
                                                                             IT security resources to provide adequate
                    including mandatory FEMA participation in the
                                                                             oversight for the configuration management
                    CCB and CCB approval of changes after testing
                                                                             process. Oversight activities should encompass
                    has occurred.
                                                                             requirements such as a NFIP Program
                �   FEMA management, including IT security and               Configuration Management Board responsible for
                    financial personnel, are not involved in testing         managing and participating in the NFIP CCB
                    and/or reviewing testing and approving changes to        and/or TRC to ensure that all required elements in
                    TRRP prior to implementation.                            the configuration management process are
                                                                             formally defined and implemented in accordance
                �   CCB reviews are not conducted for approval of            with DHS and FEMA guidance.
                    final changes prior to implementation into
                    production as required by FEMA and DHS               �   Dedicate the resources to fully review and finalize
                    guidance.                                                approval of all NFIP contractor’s configuration
                                                                             management policies and procedures to ensure the
            �   Limited testing requirements exist to guide personnel        revised procedures are compliant with DHS
                in the development of test plans and guidance over the       requirements.
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 69 
 

                                                                                                                                                 Appendix B
                                                          Department of Homeland Security
 

                                                      Federal Emergency Management Agency 

                                                      Information Technology Management Letter 

                                                                 September 30, 2010

                                                                                                                                   New     Repeat    Risk
NFR No.                            Condition                                               Recommendation
                                                                                                                                   Issue    Issue   Rating
                testing, including user acceptance testing, that should
                be performed and documented prior to approval and
                implementation into production. Additionally, roles
                and responsibilities over test plan procedures to ensure
                that plans are sufficient, document expected outcomes,
                and are reviewed and approved prior to development,
                are not documented.
            �   Requirements for TRRP emergency changes have not
                been formally defined in writing.


            Furthermore, we performed testwork over initial and final
            approvals for a selection of 25 TRRP changes made in FY
            2010 and noted the following exceptions:
            �   Documentation for 3 of the 25 changes could not be
                provided
            �   17 of 22 changes tested did not have initial approvals
                documented prior to developing the change
            �   9 of 22 changes tested changes did not have all the
                required approvals prior to implementation
            �   1 of 22 changes tested was implemented prior to
                change documentation being completed
            Weaknesses identified in FY 2009 related to controls to        �   In accordance with policy, enforce requirements               X        2
            restrict access and control movement of Traverse program           over individual user accounts by not allowing
            libraries and data continue to exist in FY 2010.                   vendors to a use a system administrator’s account
FEMA-IT­    Specifically:
  10-60                                                                        to access the system and deploy changes into
                                                                               production.
            �   Implementation procedures over Traverse changes
                have not been established, and current processes do        �   Document and implement policies and procedures

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 70 
 

                                                                                                                                               Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                                 New     Repeat    Risk
NFR No.                            Condition                                             Recommendation
                                                                                                                                 Issue    Issue   Rating
                not incorporate segregation of duties requirements.          to limit Traverse developer and application
                Specifically, NFIP IT contractors use their                  support vendor access to the NFIP production
                individually assigned system administrator accounts to       environment to “read only” through an assigned
                logon and create sessions to allow a third-party             user account and segregate the responsibility for
                development vendor to install Traverse system                deploying application code changes into
                changes.                                                     production from the development/support vendor
                                                                             to an independent control group. Additionally,
            �   NFIP does not have a formal process for monitoring           procedures should include implementation
                changes that the vendor makes in Traverse while              process requirements for controlling access to
                logged in as an administrator.                               production directories. If business needs require
                                                                             that the segregation of duties cannot be
                                                                             immediately implemented, FEMA should
                                                                             document and implement policies and procedures
                                                                             to mitigate the risk associated with the
                                                                             segregation of duties weakness noted in
                                                                             accordance with DHS guidance, including a
                                                                             formalized process for performing and
                                                                             documenting reviews of activity performed by
                                                                             third-party vendors within the Traverse
                                                                             environment.
            As noted during the FY 2009 audit engagement,                �   Develop, document, and fully implement an IT                  X        2
            weaknesses over contingency planning for both the                Contingency Plan for NFIP components,
            Traverse and TRRP systems continue to exist in FY 2010.          including TRRP and Traverse. Additionally,
            Specifically:                                                    ensure that contingency planning documentation
                                                                             includes detailed instructions for restoring
            �   While the NFIP/LSS Contingency Plan, which
FEMA-IT­                                                                     operating system software and critical
                pertains to the contingency planning around Traverse
  10-61                                                                      applications in the event of a disaster,
                and the NFIP LAN, has been updated for FY 2010, the
                                                                             contingency, or disruption of service in
                following elements are not in compliance with DHS
                                                                             accordance with DHS and NIST policy
                and NIST requirements:
                                                                             requirements for systems categorized at the high
                �   The NFIP/LSS IT Contingency Plan does not                impact availability objective.
                    document detailed instructions for restoring
                                                                         �   Conduct and document annual tests of the TRRP
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 71 
 

                                                                                                                                                 Appendix B
                                                         Department of Homeland Security
 

                                                     Federal Emergency Management Agency 

                                                     Information Technology Management Letter 

                                                                September 30, 2010

                                                                                                                                   New     Repeat    Risk
NFR No.                            Condition                                              Recommendation
                                                                                                                                   Issue    Issue   Rating
                    operating systems and critical applications in the        and Traverse IT Contingency Plan(s) that address
                    event of a disaster, contingency, or disruption of        all critical phases of the plan(s), and update
                    service.                                                  contingency planning documentation with lessons
                                                                              learned, as necessary and in accordance with DHS
                �   The NFIP/LSS IT Contingency Plan does not                 and NIST requirements.
                    designate the current alternate processing facility
                    for the operating environment.                        �   Dedicate resources to establish and implement an
                                                                              alternate processing site for the NFIP systems in
                �   Testing of the NFIP/LSS IT Contingency Plan has           accordance with DHS policy requirements.
                    not been performed in the 12 months, as required
                    by DHS policy.                                        �   Until an alternate processing site is established,
                                                                              develop and submit an exception for approval in
            �   FEMA and NFIP management have not documented                  accordance with DHS policy, and ensure that
                or approved a current IT Contingency Plan for the             compensating controls over the lack of an
                mainframe environment supporting the TRRP system              alternate processing site have been implemented
                in accordance with FEMA and DHS requirements.                 and are effective, and documentation of their
            �   Contingency testing over TRRP was not sufficiently            effectiveness is maintained as auditable records.
                conducted in accordance with DHS and NIST                 �   Document, implement, and maintain the NFIP
                requirements. While a limited disaster recovery test of       COOP to ensure required elements for Traverse
                the NFIP mainframe environment, including TRRP,               and TRRP are included in accordance with DHS
                was performed in October 2009 to test restoration of          guidance for high impact systems.
                data, all elements required to be tested under the DHS
                requirements for an IT Contingency Plan were not
                sufficiently addressed and could not be used to
                validate the effectiveness of the organization’s
                contingency planning controls.
            �   The NFIP contractor’s COOP for Traverse and TRRP
                could not be provided for auditor review.
                                                                          �   Document and establish a centralized and                       X        3
            Conditions noted in FY 2009 related to weaknesses over
FEMA-IT­    the NEMIS configuration management process continue to            integrated change management process over
  10-62     exist in FY 2010. Based on our testwork, we concluded             NEMIS to ensure that adequate controls are
            that NEMIS configuration management is not adequately             implemented throughout the lifecycle of the

           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 72 
 

                                                                                                                                                 Appendix B
                                                        Department of Homeland Security
 

                                                    Federal Emergency Management Agency 

                                                    Information Technology Management Letter 

                                                               September 30, 2010

                                                                                                                                    New     Repeat    Risk
NFR No.                            Condition                                              Recommendation
                                                                                                                                    Issue    Issue   Rating
            and centrally controlled, documented, or managed                 configuration management process, in accordance
            throughout the lifecycle of the FEMA configuration               with DHS and FEMA policy.
            management process. Specifically, we identified the
            following weaknesses:                                        �   Formally      designate     FEMA       management
                                                                             responsibilities for oversight and implementation
            �   NEMIS configuration management policy and                    of controls for initiating, monitoring, testing, and
                procedures which outline FEMA’s responsibilities and         approving all NEMIS non-emergency and
                processes for initiating, monitoring, testing, and           emergency changes;
                approving NEMIS non-emergency and emergency
                changes that are developed under the various             �   Establish a centralized, formal process to monitor,
                development contracts have not been documented and           document, and track NEMIS software changes
                approved by FEMA management, in accordance with              throughout the configuration management
                DHS and FEMA policy.                                         lifecycle, from initial approval through
                                                                             implementation into the production environment.
            �   FEMA does not have a centralized program
                management function or process to monitor and track
                NEMIS SCRs throughout the configuration
                management lifecycle, from initial approval through
                implementation into the production environment.
            During the FY 2010 audit engagement, we noted                �   Revise, document and fully implement a                  X                 2
            weaknesses over the IFMIS-Merger Configuration                   comprehensive     configuration   management
            Management Plan (CMP). Based on our testwork, we                 program that includes a Configuration
            concluded that the IFMIS configuration management                Management Plan for IFMIS-Merger, which
            process does not meet comprehensive change management            aligns with all applicable DHS and FEMA
            process requirements and procedures as required by DHS           requirements and reflects the current IFMIS-
FEMA-IT­    and NIST guidance because it is not adequately                   Merger operating environment and all applicable
  10-63     documented. For example, we identified the following             IT components.
            weaknesses:
                                                                         �   Include in policies and procedures (a) clearly
            �   The IFMIS CMP provided in July 2010 is in draft and          defined and formalized responsibilities for change
                has not been updated to reflect the new IFMIS-Merger         management oversight bodies including a
                operating environment. Specifically, the plan includes       Configuration/Change Control Board and (b)
                Core IFMIS and G&T IFMIS, but does not address the           sufficiently   detailed    responsibilities    and
                IFMIS-Merger instance that began operations in
           Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                              Page 73 
 

                                                                                                                                          Appendix B
                                                         Department of Homeland Security
 

                                                     Federal Emergency Management Agency 

                                                     Information Technology Management Letter 

                                                                September 30, 2010

                                                                                                                             New     Repeat    Risk
NFR No.                            Condition                                          Recommendation
                                                                                                                             Issue    Issue   Rating
               February 2010.                                              requirements for security impact analyses, test
                                                                           plan development, and approval for non-
           �   Infrastructure information     for    the in-scope          emergency and emergency change procedures.
               applications does not include the server information
               for G&T IFMIS, which was operational when the plan
               was last revised in November 2009.
           �   The CCB has not been formally and fully integrated
               into the FEMA change management process. While
               we were informed that a CCB for IFMIS was
               established on March 22, 2010, we determined that the
               requirements over the roles and responsibilities as well
               as the membership of the CCB were not clearly
               defined, implemented, and documented to ensure that
               DHS requirements are met.
           �   Membership of the “SCR Review Team” responsible
               for initial approval for development of any changes to
               the application is not formally defined.
           �   Requirements that security impact analyses be
               performed prior to implementation of changes have
               not been documented.
           �   Limited testing requirements exist to guide FEMA
               personnel in the development of test plans and
               guidance over the testing that should be performed
               and documented.             Additionally, roles and
               responsibilities over test plan procedures to ensure that
               plans are sufficient, document expected outcomes, and
               are reviewed and approved prior to development, are
               not documented.
           �   Requirements over emergency changes have not been
               defined in writing.

          Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial Statement Audit 
 

                                                             Page 74 
 

                                                                                 Appendix C
                             Department of Homeland Security
 

                         Federal Emergency Management Agency 
 

                         Information Technology Management Letter 
 

                                    September 30, 2010




                                      APPENDIX C
 Status of Prior Year Notices of Findings and Recommendations and 
 

                           Comparison to 
 

    Current Year Notices of Findings and Recommendations at the 
 

             Federal Emergency Management Agency 
 





Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial 

                                      Statement Audit
 

                                           Page 75 
 

                                                                                              Appendix C
                                Department of Homeland Security
                            Federal Emergency Management Agency
                            Information Technology Management Letter
                                       September 30, 2010


                                                                                         Disposition
   NFR No.                                Description                              Closed        Repeat

                Configuration Management Weaknesses on IFMIS, NEMIS, and Key
FEMA-IT-09-02
                Support Servers (vulnerability assessment finding)                           FEMA-IT-10-41
FEMA-IT-09-03   Weaknesses Exist over Recertification of Access to IFMIS                     FEMA-IT-10-14
                Documentation Supporting the IFMIS User Functions Does Not
FEMA-IT-09-06
                Exist                                                                        FEMA-IT-10-49
FEMA-IT-09-12   NEMIS Access Controls Need Improvement                                       FEMA-IT-10-01
                Employee Termination Process for Removing System Access Should
FEMA-IT-09-13
                be More Proactive                                                            FEMA-IT-10-21
                System Programmers Have the Ability to Migrate Code into the
FEMA-IT-09-17
                IFMIS Production Environment                                                 FEMA-IT-10-39
FEMA-IT-09-19   Monitoring of NEMIS System Software Needs Improvement                        FEMA-IT-10-04
FEMA-IT-09-22   Alternate Processing Site for NEMIS Has Not Been Established                 FEMA-IT-10-02
FEMA-IT-09-24   NEMIS Backups are Not Tested in Accordance with Policy                       FEMA-IT-10-36
FEMA-IT-09-25   The NEMIS Contingency Plan is Not Tested                                     FEMA-IT-10-20
                NEMIS Configuration Management Process for Non-Emergency
FEMA-IT-09-28
                Changes Needs Improvement                                                    FEMA-IT-10-62
FEMA-IT-09-29   NEMIS Emergency Change Process Needs Improvement                             FEMA-IT-10-62
FEMA-IT-09-38   Segregation of Duties Not Enforced for Traverse                      X
                Traverse Contingency Plan Not Tested and NFIP Disaster Recovery
FEMA-IT-09-39                                                                                FEMA-IT-10-61
                and COOP Needs Improvement
                IFMIS User Access is not Managed in Accordance with Account
FEMA-IT-09-45
                Management Procedures                                                        FEMA-IT-10-26
                IFMIS System Interconnections Agreements Have Not Been
FEMA-IT-09-46                                                                        X
                Reauthorized
                Corrective Action over NEMIS Vulnerabilities is Not Formally
FEMA-IT-09-48
                Documented                                                                   FEMA-IT-10-33
                Weaknesses Exist over IFMIS Application and Database Audit
FEMA-IT-09-50
                Logging                                                                      FEMA-IT-10-11
FEMA-IT-09-51   NEMIS Oracle Audit Logging is Not Tracked                                    FEMA-IT-10-09
                Existing NEMIS Patch Management Guidance Needs to be
FEMA-IT-09-52
                Implemented                                                                  FEMA-IT-10-35
                The NEMIS SSP Had Not Been Fully Updated in Accordance with
FEMA-IT-09-53
                DHS Policy                                                                   FEMA-IT-10-18
FEMA-IT-09-54   Traverse Application Management Needs Improvement                            FEMA-IT-10-58
                G&T IFMIS Oracle Database Security Controls are Not Configured
FEMA-IT-09-56
                Properly                                                                     FEMA-IT-10-27
FEMA-IT-09-57   G&T IFMIS Oracle Database Auditing is Not Sufficient                         FEMA-IT-10-13
                Recertification of G&T IFMIS Application and Database Access has
FEMA-IT-09-58
                Not Been Performed                                                           FEMA-IT-10-15
                System Programmers Have the Ability to Migrate Code into the
FEMA-IT-09-59                                                                                FEMA-IT-10-40
                G&T IFMIS Production Environment
FEMA-IT-09-60   NFIP Legacy System C&A is Expired                                            FEMA-IT-10-24
FEMA-IT-09-61   G&T IFMIS Certification & Accreditation has Not Been Performed               FEMA-IT-10-16
FEMA-IT-09-62   VPN Remote Access is Not Appropriately Authorized or Monitored               FEMA-IT-10-25
FEMA-IT-09-63   External Connections to the FEMA VPN are Not Appropriately
                                                                                             FEMA-IT-10-50
                Authorized or Documented
Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial 
 

                                      Statement Audit
 

                                           Page 76 
 

                                                                                              Appendix C
                                 Department of Homeland Security
                             Federal Emergency Management Agency
                             Information Technology Management Letter
                                        September 30, 2010

                                                                                         Disposition
   NFR No.                                Description                              Closed        Repeat

FEMA-IT-09-64 Core IFMIS Oracle Database is Not Configured to Prevent the Reuse
              of Passwords                                                                   FEMA-IT-10-07
FEMA-IT-09-65 G&T IFMIS Access Authorizations are Not Consistently
              Documented                                                                     FEMA-IT-10-12
FEMA-IT-09-66 NEMIS Oracle Database is Not Configured to Enforce DHS
              Password Requirements                                                          FEMA-IT-10-06
FEMA-IT-09-67 End-User Workstation Screensaver Configuration is Not Sufficient               FEMA-IT-10-03
FEMA-IT-09-68 PARS Has Not Been Certified and Accredited                                     FEMA-IT-10-29
FEMA-IT-09-69 Transaction Recording and Reporting Processing TRRP
                                                                                             FEMA-IT-10-59
              Configuration Management Plan Weaknesses
FEMA-IT-09-70 Traverse and the NFIP LAN Configuration Patch Management
                                                                                             FEMA-IT-10-23
              Weaknesses
FEMA-IT-09-71 Physical Security and Security Awareness Issues Were Identified
                                                                                             FEMA-IT-10-38
              During Enhanced Security Testing
FEMA-IT-09-72 Exception Request over IFMIS Audit Logging is Inconsistent with
                                                                                     X
              Existing Controls
FEMA-IT-09-73 Core and G&T IFMIS System Software Administrator Activity is
                                                                                             FEMA-IT-10-44
              Not Appropriately Monitored
FEMA-IT-09-74 The FEMA Systems Inventory is Incomplete                               X
FEMA-IT-09-75 Requirements for Recertification of Access to the NFIP Data Center     X
FEMA-IT-09-76 Emergency and Temporary Access to the Core IFMIS Database is
              Not Properly Authorized and Conflicts with Segregation of Duties               FEMA-IT-10-30
              Principles
FEMA-IT-09-77 FEMA and NFIP Planning, Management and Communication
                                                                                               FEMA-IT-
              Related to Financial Systems Development and Acquisition Projects
                                                                                             FEMA-IT-10-47
              Needs to be Improved
FEMA-IT-09-78 Weaknesses Exist in the NEMIS Configuration Management Process
              under the Enterprise Applications Development Integration and                  FEMA-IT-10-62
              Sustainment (EADIS) contract
FEMA-IT-09-79 Weaknesses Exist over Management of FEMA LAN Accounts                          FEMA-IT-10-22
FEMA-IT-09-80 Vulnerability Assessments of the NFIP LAN is Inadequate                        FEMA-IT-10-52
FEMA-IT-09-81 Improvements are Needed in Core and G&T IFMIS Internal
                                                                                             FEMA-IT-10-34
              Scanning Procedures and Processes
FEMA-IT-09-82 Core and G&T IFMIS Patch Management Weaknesses                                 FEMA-IT-10-32
FEMA-IT-09-83 EADIS NEMIS Access Restrictions to Program Directories Needs
                                                                                             FEMA-IT-10-51
              Improvement
FEMA-IT-09-84 PARS Database Security Controls are Not Appropriately Established              FEMA-IT-10-05
FEMA-IT-09-85 TRRP Password Configurations Have Not Been Configured in
                                                                                     X
              Accordance with DHS Policy
FEMA-IT-09-86 Weaknesses Exist over the Implementation of Traverse System
                                                                                             FEMA-IT-10-60
              Changes
FEMA-IT-09-87 Weaknesses Exist in FEMA’s Incident Response Program                          FEMA-IT-10-31
FEMA-IT-09-88 Weaknesses Exist over Access Authorizations for TRRP                          FEMA-IT-10-53
FEMA-IT-09-89 Weaknesses Exist over FEMA Background Investigations for
                                                                                             FEMA-IT-10-45
              Federal Employees and Contractors
FEMA-IT-09-90 FEMA LAN Certification and Accreditation Package is not Adequate               FEMA-IT-10-28
FEMA-IT-09-91 FEMA Contractor Tracking Program is Inadequate                                 FEMA-IT-10-10
Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial 
 

                                      Statement Audit
 

                                           Page 77 
 

                                                                                                                 Appendix D
                                         Departmen
                                         Departmentt of Ho
                                                        Homela
                                                          meland
                                                               nd Security 

                                     Federal Emergency Management Agency 

                                     Information Technology Management Letter 

                                                September
                                                September 30, 2010

                                                                                     .5. Dcp.rlme," of Homchlnd SCoCurilJ
                                                                                   Washin~1{on,D.C. _0472




                                                                                  FEMA
                                             FEB 2 8 2011


    MEMORA DUM POR:                   rank DeHer
                                     Assistant Inspector General
                                     Infonn8tion Technology Audits

    THROUGH:                         Brad Shef'ka  p.:J~
                                     Chief, FEMA     AOfOIG Liaison

    FR.OM:                       ] can A. Etze     'CZ1 [      a
                                 Chief Inform a on Officer/Di rector
                                 Office of the' hief Information Officer

    SUBJECT:                         Response to Draft Audit Report - Information Technology Management
                                 Letterfor the Federal Emergency Management Agency Component ofthe
                                 FY 2010 DHS Financial Statement Audil- For Official Use Only OIG
                                 Project No: II-002-1TA-PEMA dated Pebruary 2011


    The Federal Emergency Management Agency (F -MA) appreciates the Depaliment of Homeland Security
    (DHS) Office of the Inspector eneral providing KPMG's evaluation of FEMA's information technology
    (IT) general controls and their reconunendations for improving FEMA' flllancial pofOcessing enviromnent
    and related IT infrastructure. The evaluation has been vel"j helpful in identifying areas requiring
    improvement and prioritizing work to implement their recommendations.

    Generally F MA <:oncurs with the auditor's recommendations in the report referenced above. The Chief
    Information Officer (el ) is resolute in directing these audit recommendations be effecti vely implemented in
    a timely manner. Weekly, FEMA's Audit Remediation Team meets with the Action Officer to revlew the
    status of implementing   ~hese   recommendations and address issues lhat are impeding progress. Bran.ch Chiefs
    receive weekly reports reflecting the current status ofth ir organization' assigned actions and. are working
    diligently to correct findings and implement recommendation " Implementation of corrective actions is a
    perfonnance goal for each Bl:"311Ch Chief in th.e Office of the Chief lnfolTI1atioll Officer.

    III addition to the detailed Plan of Action and Milestones (POA&M) for e,lch audit recommendatiQIl in the
    DHS Trusted Agent FISMA (TAF) system, FEMA has developed detailed remediation work plans to ensure
    root causes are addressed. Remediation. work plan starns is di cussed at weekly meeting with senior
    management. If you have any questions regarding the status of the planned actions, we are available to meet
    with your oflfice. FEMA's ellior leadership is committed to completing the remaining actions. included in
    each of the POA&Ms at the earliest possible time.

    If you have any question', plea e bave your staffcontad Deborah Moradi, Chief, Govel"DanCe and Investment
    lntegrailion Branch, at 202-646-3154.




Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial 

                                      Statement Audit

                                                  Audit 

                                           Page 78 
 

                             Department of Homeland Security

                         Federal Emergency Management Agency 

                         Information Technology Management Letter 

                                    September 30, 2010



                    Report Distribution

                    Department of Homeland Security

                    Secretary
                    Deputy Secretary
                    General Counsel
                    Chief of Staff
                    Deputy Chief of Staff
                    Executive Secretariat
                    Under Secretary, Management
                    Administrator, FEMA
                    DHS Chief Information Officer
                    DHS Chief Financial Officer
                    Chief Financial Officer, FEMA
                    Chief Information Officer, FEMA
                    Chief Information Security Officer
                    Assistant Secretary for Office of Policy
                    Assistant Secretary for Office of Public Affairs
                    Assistant Secretary for Office of Legislative Affairs
                    DHS GAO OIG Audit Liaison
                    Chief Information Officer, Audit Liaison
                    FEMA Audit Liaison

                    Office of Management and Budget

                    Chief, Homeland Security Branch
                    DHS OIG Budget Examiner

                    Congress

                    Congressional Oversight and Appropriations Committees, as
                    appropriate




Information Technology Management Letter for the FEMA Component of the FY 2010 DHS Financial 

                                      Statement Audit
 

                                           Page 79 
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
